<html>
<title> - AMERICA'S WATER RESOURCES INFRASTRUCTURE: APPROACHES TO ENHANCED PROJECT DELIVERY</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



   AMERICA'S WATER RESOURCES INFRASTRUCTURE: APPROACHES TO ENHANCED 
                            PROJECT DELIVERY

=======================================================================

                                (115-33)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 18, 2018

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure



              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


     Available online at: https://www.govinfo.gov/committee/house-
     transportation?path=/browsecommittee/chamber/house/committee/
                             transportation



                       
                      U.S. GOVERNMENT PUBLISHING OFFICE
                
33-621 PDF                      WASHINGTON: 2018





             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman

DON YOUNG, Alaska                    PETER A. DeFAZIO, Oregon
JOHN J. DUNCAN, Jr., Tennessee,      ELEANOR HOLMES NORTON, District of 
  Vice Chair                         Columbia
FRANK A. LoBIONDO, New Jersey        JERROLD NADLER, New York
SAM GRAVES, Missouri                 EDDIE BERNICE JOHNSON, Texas
DUNCAN HUNTER, California            ELIJAH E. CUMMINGS, Maryland
ERIC A. ``RICK'' CRAWFORD, Arkansas  RICK LARSEN, Washington
LOU BARLETTA, Pennsylvania           MICHAEL E. CAPUANO, Massachusetts
BLAKE FARENTHOLD, Texas              GRACE F. NAPOLITANO, California
BOB GIBBS, Ohio                      DANIEL LIPINSKI, Illinois
DANIEL WEBSTER, Florida              STEVE COHEN, Tennessee
JEFF DENHAM, California              ALBIO SIRES, New Jersey
THOMAS MASSIE, Kentucky              JOHN GARAMENDI, California
MARK MEADOWS, North Carolina         HENRY C. ``HANK'' JOHNSON, Jr., 
SCOTT PERRY, Pennsylvania            Georgia
RODNEY DAVIS, Illinois               ANDRE CARSON, Indiana
MARK SANFORD, South Carolina         RICHARD M. NOLAN, Minnesota
ROB WOODALL, Georgia                 DINA TITUS, Nevada
TODD ROKITA, Indiana                 SEAN PATRICK MALONEY, New York
JOHN KATKO, New York                 ELIZABETH H. ESTY, Connecticut, 
BRIAN BABIN, Texas                   Vice Ranking Member
GARRET GRAVES, Louisiana             LOIS FRANKEL, Florida
BARBARA COMSTOCK, Virginia           CHERI BUSTOS, Illinois
DAVID ROUZER, North Carolina         JARED HUFFMAN, California
MIKE BOST, Illinois                  JULIA BROWNLEY, California
RANDY K. WEBER, Sr., Texas           FREDERICA S. WILSON, Florida
DOUG LaMALFA, California             DONALD M. PAYNE, Jr., New Jersey
BRUCE WESTERMAN, Arkansas            ALAN S. LOWENTHAL, California
LLOYD SMUCKER, Pennsylvania          BRENDA L. LAWRENCE, Michigan
PAUL MITCHELL, Michigan              MARK DeSAULNIER, California
JOHN J. FASO, New York
A. DREW FERGUSON IV, Georgia
BRIAN J. MAST, Florida
JASON LEWIS, Minnesota

                                  (ii)

  


            Subcommittee on Water Resources and Environment

                   GARRET GRAVES, Louisiana, Chairman

ERIC A. ``RICK'' CRAWFORD, Arkansas  GRACE F. NAPOLITANO, California
BOB GIBBS, Ohio                      LOIS FRANKEL, Florida
DANIEL WEBSTER, Florida              FREDERICA S. WILSON, Florida
THOMAS MASSIE, Kentucky              JARED HUFFMAN, California
RODNEY DAVIS, Illinois               ALAN S. LOWENTHAL, California
MARK SANFORD, South Carolina         EDDIE BERNICE JOHNSON, Texas
ROB WOODALL, Georgia                 JOHN GARAMENDI, California
TODD ROKITA, Indiana                 DINA TITUS, Nevada
JOHN KATKO, New York                 SEAN PATRICK MALONEY, New York
BRIAN BABIN, Texas                   ELIZABETH H. ESTY, Connecticut
DAVID ROUZER, North Carolina         CHERI BUSTOS, Illinois
MIKE BOST, Illinois                  JULIA BROWNLEY, California
RANDY K. WEBER, Sr., Texas           BRENDA L. LAWRENCE, Michigan
DOUG LaMALFA, California             PETER A. DeFAZIO, Oregon (Ex 
A. DREW FERGUSON IV, Georgia         Officio)
BRIAN J. MAST, Florida, Vice Chair
BILL SHUSTER, Pennsylvania (Ex 
Officio)

                                 (iii)



                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Major General Ed Jackson, Deputy Commanding General for Civil and 
  Emergency Operations, U.S. Army Corps of Engineers.............     5
James C. Dalton, Director of Civil Works, U.S. Army Corps of 
  Engineers......................................................     5
Mike Inamine, Executive Director, Sutter Butte Flood Control 
  Agency.........................................................     5
Leah F. Pilconis, Senior Counsel, Environmental Law and Policy, 
  The Associated General Contractors of America..................     5
Jill Jamieson, Managing Director, Jones Lang LaSalle.............     5
Nicole T. Carter, Specialist in Natural Resources Policy, 
  Congressional Research Service.................................     5

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Major General Ed Jackson and James C. Dalton, joint statement....    56
Mike Inamine.....................................................    64
Leah F. Pilconis.................................................    69
Jill Jamieson, including addendum entitled, ``Tapping Private 
  Financing and Delivery to Modernize America's Federal Water 
  Resources'' 



Nicole T. Carter.................................................   171

                       SUBMISSIONS FOR THE RECORD

Executive summary to report entitled, ``40 Proposed U.S. 
  Transportation and Water Infrastructure Projects of Major 
  Economic Significance,'' Fall 2016, prepared by a team led by 
  AECOM under contract for the U.S. Department of the Treasury on 
  behalf of the Build America Investment Initiative; submitted by 
  Hon. Grace F. Napolitano, a Representative in Congress from the 
  State of California............................................   182
Report, ``The Benefits of NEPA: How Environmental Review Empowers 
  Communities and Produces Better Projects,'' January 16, 2018, 
  by Kevin DeGood, Director of Infrastructure Policy, Center for 
  American Progress; submitted by Hon. Alan S. Lowenthal, a 
  Representative in Congress from the State of California........   186
Major General Ed Jackson, Deputy Commanding General for Civil and 
  Emergency Operations, U.S. Army Corps of Engineers and James C. 
  Dalton, Director of Civil Works, U.S. Army Corps of Engineers, 
  joint responses to questions for the record issued by the 
  following Representatives:

    Hon. Garret Graves of Louisiana..............................    59
    Hon. Mark Sanford of South Carolina..........................    62
    Hon. Mike Bost of Illinois...................................    63

                        ADDITIONS TO THE RECORD

Written statement of the National Association of Clean Water 
  Agencies.......................................................   196
  
                       

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




 
   AMERICA'S WATER RESOURCES INFRASTRUCTURE: APPROACHES TO ENHANCED 
                            PROJECT DELIVERY

                              ----------                              


                       THURSDAY, JANUARY 18, 2018

                  House of Representatives,
   Subcommittee on Water Resources and Environment,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m. in 
room 2167, Rayburn House Office Building, Hon. Garret Graves 
(Chairman of the subcommittee) presiding.
    Mr. Graves of Louisiana. The subcommittee will come to 
order. Good morning, and thank you all for being here.
    I ask unanimous consent that Members not on the 
subcommittee be permitted to sit with the subcommittee at 
today's hearing and ask questions. Is there any objection?
    Without objection, so ordered.
    I want to welcome everyone to our hearing today on 
America's water resources infrastructure and approaches to 
enhance project delivery.
    The numbers speak for themselves when you look at the 
challenges that we are facing. Right now we have an estimated 
$100 billion in Corps of Engineer-authorized projects, a 
backlog of approximately $100 billion. Yet the appropriations 
process yields somewhere in the $5 to $6 billion range on an 
annual basis, with less than $2 billion of that for 
construction. It doesn't take a mathematician to recognize that 
you are not ever going to keep up with even inflation on these 
projects, much less be able to authorize new projects and ever 
truly yield the benefits or see the true cost-to-benefit of 
these projects under the current implementation regime.
    Right now we have lock systems in the United States that 
average 60 years old. We have dams and levees in the United 
States that average approximately 50 years old. In my home 
State of Louisiana, one of the most important locks we have 
there is approaching 100 years old, and has been somewhere in 
the authorization process--in fact, has had an authorization, 
as I recall, since the 1960s for refurbishment, but has not 
been updated.
    It is also important to keep in mind the role that this 
infrastructure plays in our Nation. This isn't just some 
project that may be an option, an alternative, or some type of 
luxury investment. These projects are integral to our Nation. 
Ninety-nine percent of our products that are exported and 
imported into the United States come through our seaports, 99 
percent. There is not an alternative.
    Certainly you look at what has happened just last year, in 
the last several months, last few months, with Hurricanes 
Harvey, Irma, and Maria. There are projects in some of these 
cases that would have helped to protect, or would have reduced 
the impact of these awful hurricanes on these communities in 
Texas and Florida and Puerto Rico, Virgin Islands, and others, 
in some cases authorized projects. In my home State of 
Louisiana, in August of 2016, we had a flood that had a project 
that dates back to 1986 that has had only one small component 
of construction.
    Now, you can look at the implementation process right now, 
and right now it takes, on average, about 6 years for the Corps 
of Engineers to go through the environmental impact statement 
process--6 years. It takes, on average, according to the 
Council on Environmental Quality, approximately 4.7 years to go 
through the environmental permitting process.
    These statistics are unacceptable when you look at the 
urgency of these projects that we are trying to build. Whether 
it is keeping up with trends in the maritime industry related 
to the post-Panamax vessels, the larger, wider vessels that, in 
many cases, don't fit in our rivers and our harbors and port 
systems in the United States, or, once again, the urgency of 
our hurricane protection, our flood protection, and our 
ecological restoration projects, some of which have been 
sitting in authorized posture now for not years, but decades 
with little to no progress.
    It is important to note that you can look at implementation 
models of local governments, of State governments, and even 
other Federal agencies and, incredibly, of the Corps of 
Engineers, when given different authorities or different 
financial structures. The efficiency of delivering these 
projects can be much, much greater. And as I think we will hear 
from some of our witnesses today, we will hear statistics or 
perhaps examples of where project cost and project timeframes 
can be reduced by 50 percent or less.
    So, recognizing the urgency of the projects that we are 
trying to build, recognizing the fact that the backlog of 
projects, the funding stream that we are currently utilizing is 
not ever going to get us to resolution, or get us to completion 
of these projects, we are very happy to have representatives 
from the Corps of Engineers, from local government sponsors, 
from contractors, and from the Library of Congress, the 
Congressional Research Service, to share their perspective and 
expertise with us on alternative project development and 
implementation processes.
    So I look forward to hearing from our expert witnesses 
today, and turn to our ranking member for an opening statement.
    Mrs. Napolitano. Thank you very much, Mr. Chairman, for 
holding the formal hearing on the development of the new Water 
Resources Development Act of 2018.
    Let me first start by congratulating the chairman of the 
committee, Mr. Shuster, for his efforts to return to Congress 
the practice of approving a new water resources development act 
every 2 years. This, combined with significant project delivery 
changes within the Corps itself, has started to break the 
logjam for communities to benefit from the expertise of our 
Nation's premier water resource agency, the Army Corps of 
Engineers.
    Yes, many challenges remain. But I am hopeful that we will 
continue to improve and expand the Corps' ability to address 
water-related infrastructure challenges faced by each of our 
communities.
    And today's hearing highlights two of the challenges. How 
can local communities afford to pay for necessary navigation, 
flood control, water supply, and environmental recreation 
projects; and who gets to decide what projects are to be 
funded?
    On the latter point I am pleased that the President has 
opened the discussion on eliminating the moratorium on 
congressionally directed spending requests. This moratorium did 
not curtail spending, nor did it increase transparency. It 
simply transferred decisionmaking authority from locally 
elected individuals to executive branch employees in 
Washington, DC. Like you, my constituents elected me to be 
their voice in Congress, and I know better what my communities 
need than the head of OMB.
    When this committee under former Chairman Oberstar moved a 
bill and congressionally directed project requests, we did so 
in the light of day, with Members' names associated with the 
request. Today, when similar decisions on project funding are 
made at the Corps, there is no transparency on how those 
decisions are made. I welcome continued discussions on the 
point and hope we can restore greater local control and, of 
course, more transparency into funding decisions than we have 
today.
    On the issue of funding, we know that our communities 
constantly struggle to afford critical infrastructure 
investments, including water-related infrastructure, to address 
their local needs. Yet year after year Congress fails to 
adequately fund--help our communities with their critical 
infrastructure investments, in essence telling our communities, 
``You are on your own.'' This lack of predictability and 
sufficient infrastructure funding is the lead reason why 
projects take so long to complete.
    In fact, in December 2016 the U.S. Department of the 
Treasury released a commissioned report that concluded a lack 
of public funding--a lack of public funding--is by far the most 
common factor hindering the completion of transportation and 
water infrastructure needs, affecting 39 of the 40 projects 
reviewed. I ask unanimous consent that an executive summary of 
this report be included in today's hearing record.
    Mr. Graves of Louisiana. Without objection.

        [The executive summary of the report referenced by 
        Congresswoman Napolitano is on pages 182-185.]

    Mrs. Napolitano. Today we will discuss alternative project 
delivery approaches, presumably under the guise that these 
alternative approaches will result in a great number of 
projects being constructed without a significant increase in 
Federal funding.
    We will also discuss the option of public-private 
partnerships, one of these alternative project delivery 
approaches. I welcome the discussion, because I suspect that 
P3s will make up a significant portion of the President's 
forthcoming infrastructure plan.
    However, a good starting point for the discussion picks up 
the work that this committee has already done in a special 
Panel on Public-Private Partnerships in 2014. I highlight one 
of the points of the panel's final report, which concluded 
that--and I quote--``regardless of the method of delivery or 
the source of financing, the cost of infrastructure projects 
are borne by the public--there is no free lunch.''
    Why is it relevant? Because there appears to be a 
widespread misperception that public-private partnerships 
increase access to financing available to local communities. 
Simply not the case. There is not an infrastructure gap in this 
country due to lack of access to financing. There is an 
infrastructure gap because State governments are constrained by 
the lack of revenue needed to pay for the investment, and 
public-private partnerships do not alone solve the problem.
    Public-private partnerships are indeed a good tool. And 
again, it is simply a tool like many other financing tools that 
can be used to help finance infrastructure investment. Some of 
these tools work for certain types of communities, others do 
not. Yet it is incumbent that local communities--potential 
trade-offs in using various methods to finance their local 
needs.
    Similarly, if the President is going to make the use of P3s 
an integral part of the infrastructure plan, Congress must 
undertake a similar analysis of potential trade-offs. These may 
include the consequences of blocking off future appropriation 
to repay private lenders, or allowing other mechanisms, such as 
taxing authority to repay the cost of financing provided by the 
private entity. Again, there is no free lunch.
    I welcome our initiation of this broader discussion and 
look forward to hearing from all our witnesses.
    Thank you, Mr. Chairman.
    Mr. Graves of Louisiana. Thank you. And I want to thank my 
friend for always working together with us, and looking forward 
to putting together a good bipartisan proposal.
    Mrs. Napolitano. It is my pleasure. Thank you.
    Mr. Graves of Louisiana. Before I begin introducing our 
witnesses this morning, allow me to dispense with some of the 
unanimous consent requests.
    I ask unanimous consent that the record remain open for 15 
days for additional comments and information submitted by 
Members or witnesses, and that this material be included in the 
record of today's hearing.
    Without objection, so ordered.
    I ask unanimous consent the record of today's hearing 
remain open for such time as our witnesses provide answers to 
any questions that may be submitted to them in writing.
    Without objection, so ordered.
    Thank you. Our first witness today is Major General Ed 
Jackson, who is Deputy Commanding General for Civil and 
Emergency Operations at the United States Army Corps of 
Engineers.
    General Jackson, thank you for being here. You are 
recognized for 5 minutes.

   TESTIMONY OF MAJOR GENERAL ED JACKSON, DEPUTY COMMANDING 
GENERAL FOR CIVIL AND EMERGENCY OPERATIONS, U.S. ARMY CORPS OF 
ENGINEERS; JAMES C. DALTON, DIRECTOR OF CIVIL WORKS, U.S. ARMY 
 CORPS OF ENGINEERS; MIKE INAMINE, EXECUTIVE DIRECTOR, SUTTER 
 BUTTE FLOOD CONTROL AGENCY; LEAH F. PILCONIS, SENIOR COUNSEL, 
     ENVIRONMENTAL LAW AND POLICY, THE ASSOCIATED GENERAL 
CONTRACTORS OF AMERICA; JILL JAMIESON, MANAGING DIRECTOR, JONES 
   LANG LASALLE; AND NICOLE T. CARTER, SPECIALIST IN NATURAL 
        RESOURCES POLICY, CONGRESSIONAL RESEARCH SERVICE

    General Jackson. Chairman Graves, Ranking Member 
Napolitano, and distinguished members of the subcommittee, on 
behalf of Lieutenant General Semonite and the U.S. Army Corps 
of Engineers, I thank you for the opportunity to testify today.
    Since Congress first authorized our navigation mission in 
1824, the Corps has worked hard to develop and implement 
solutions to our Nation's water resources challenges. We are 
able to do this because we have a world-class workforce of 
talented and dedicated professionals who are passionate about 
what we do.
    None of our work is done alone, but with the full 
participation and hard work of many others. We appreciate, 
value, and depend upon the support of the administration, the 
Congress, and our partners at every level to succeed in our 
mission.
    Our most important message to you today is that the Corps 
is open to thinking and operating differently than we have in 
the past. We sincerely appreciate the efforts of Chairman 
Graves in bringing the Corps together with members of this 
subcommittee over the past 6 months, helping us to see 
ourselves better as an organization, and offering opportunities 
to improve the way we deliver solutions for those to whom we 
all answer: the American people.
    The Corps faces a multitude of challenges, some old and 
some new. Much of our infrastructure is well beyond its design 
life, yet the requirements have never been greater. The demands 
on the Federal budget continue to grow. And, as our 
infrastructure ages, we find more and more of our annual 
appropriation going to operation and maintenance at the expense 
of investments in both investigations and construction. This is 
a challenge we will continue to face together in the years to 
come.
    Today we have $96 billion in construction requirements, 
calculated in fiscal year 2016 dollars, representing the 
Federal share on a multitude of projects. These include $15 
billion in authorized but unconstructed work, $51 billion in 
projects that have been given new-start authority and provided 
with some funding, and $20 billion in high-risk dam safety 
requirements.
    We also have 97 ongoing feasibility studies which, if 
authorized, will simply add to the Federal budget requirement. 
As you know, our feasibility studies are formulated with the 
assumption of efficient funding, and most all projects require 
multiple years to implement. Yet we budget on an annual basis 
with no assurances that adequate or consistent funding will be 
available from year to year. This creates uncertainty for our 
sponsors, drives up project costs, and delays the realization 
of benefits. At the current rate, it will take us over 100 
years to address the current construction backlog, and that is 
simply unacceptable.
    Together we must find a way to incentivize and encourage 
increased State, local, and private investment in our 
infrastructure portfolio. We must target Federal investments, 
encourage innovation, streamline project delivery, and help 
transform the way infrastructure is designed, built, and 
maintained. We need to optimize the tools currently at our 
disposal, such as contributed funds, to address project 
requirements that exceed the Federal Government's ability to 
pay.
    The Corps is now working with the EPA to leverage their 
established institutional capacity as we explore implementation 
options for a water infrastructure finance and innovation 
program authorized by this subcommittee and modeled on the 
successes they have experienced with their Water Finance 
Center. We are currently developing a Memorandum of 
Understanding with the EPA, and crafting policy guidance, in 
concert with the administration, to support implementation of 
this program.
    Together we must remove barriers to the development and 
improvement of our water resources infrastructure. We must 
encourage and incentivize alternative project delivery 
approaches, streamline Federal procedures for delivering 
projects, and reduce unnecessary Federal oversight to 
facilitate timely delivery of projects.
    We recognize the Corps' role in the future may be different 
than it has been in the past, and that our level of involvement 
in project delivery may vary from project to project, location 
to location, or sponsor to sponsor. It could include no 
involvement at all, permitting and/or technical assistance 
only, or the standard cradle-to-grave Corps delivery model. 
Whatever works best to deliver worthwhile projects faster and 
cheaper is the goal.
    The Corps is fully engaged in support of multiple 
administration objectives aimed at streamlining our regulatory 
processes. Currently, the Corps is addressing topics such as 
establishing discipline and accountability in the environmental 
review and permitting process for infrastructure projects. We 
are reviewing the nationwide permit program to identify 
modifications that will increase the efficiency and timeliness 
of decisionmaking, and we are working with the EPA in reviewing 
the 2015 ``waters of the United States'' rule.
    Our goal is intended to simplify the process for gaining 
infrastructure permits while protecting the environment in 
accordance with the law.
    The Corps wants to be part of the solution, not part of the 
problem. We recognize the need to address internal policies, 
regulations, processes, and cultural impediments in order to 
remain relevant into the future. We want to be value-added in 
delivering solutions, whatever role we may have in that 
endeavor. Our Director of Civil Works, Mr. James Dalton, has 
championed a number of initiatives which he will address in his 
remarks. I fully support his efforts, and believe they are 
already making a difference across our organization.
    The Corps is a critical player in the future of water 
resources development, a very complex mission to which we bring 
incredible capability, expertise, and experience. We are 
committed to looking at old problems in a different way, and 
remain well-postured to be value-added to the overall effort.
    Thank you, Mr. Chairman and members of the subcommittee. 
This concludes my testimony, and I look forward to answering 
any questions that you might have. Thank you.
    Mr. Graves of Louisiana. Thank you very much. Perfect 
timing. We are next going to go to Mr. James Dalton, who is the 
Director of Civil Works, and the top career civilian for the 
Corps of Engineers.
    Mr. Dalton, again--I told you privately and I want to say 
it publicly--I want to thank you for some of the continued 
efforts to reform the section 408 process. As you know, it is 
not where I am comfortable, and I think I can speak for a lot 
of the committee members at the same time in saying that we 
want to see additional progress there, and concerned about how 
we believe it has deviated from the 100-plus-year-old law.
    But I do appreciate your January 12th memo that does 
additional reforms on top of the ones that you did last year. 
So thank you.
    Mr. Dalton, you are recognized for 5 minutes.
    Mr. Dalton. Thank you, Mr. Chairman and Ranking Member 
Napolitano, for the opportunity to be here to discuss ways to 
enhance project delivery by the Corps of Engineers.
    I have worked for the Corps of Engineers for a number of 
years, worked in districts and divisions, and I am extremely 
proud of the work that the Corps accomplishes. But, as just 
discussed by General Jackson and mentioned by the chairman, we 
are equally aware that the organization can improve. And I have 
been and remain committed to instituting changes in the Corps 
delivery process to make us more effective and efficient.
    And so, I would like to discuss a few of those things that 
we are undertaking right now to try to make us a better 
organization.
    I think many of you have heard us talk about flattening the 
organization. Flattening the organization is simply looking at 
how we actually delegate decisionmaking authority closer to the 
problem, closer to the project, closer to the issue, rather 
than have decisions made at the Washington headquarters level. 
This is an effort that we have a lot of work ongoing. We have 
identified several authorities that we need to delegate, and we 
are diligently working to make that happen. So flattening the 
organization is one.
    The second is we are transforming and transitioning to a 
more risk-informed decisionmaking organization. This is 
intended to help us to use professional and engineering 
judgment to make decisions, rather than relying on lengthy 
analysis and modeling when that might not be needed or 
necessary. Often our technical experts can make decisions based 
on their knowledge, experience, and competence in a specific 
area or a specific project, and they should be free to do that 
without having to follow rigid processes that dictate more 
lengthy analysis. Risk-informed decisions, or professional 
judgment decisions, should be made and documented without 
having to be subjected to numerous reviews after those 
decisions are made.
    The third thing we are looking at is how we actually put 
our guidance together. We are recognizing the fact that our 
guidance needs to be jointly developed, so that one part of the 
organization is absolutely aware of what is happening in 
another part of the organization. For years we have operated in 
stovepipes, and we are trying to eliminate that in terms of how 
we produce guidance.
    We are also looking at how to best capture total value of 
our projects. Many communities already have a massive plan or a 
road map that they are following to try and determine how 
projects best fit within their community. They consider things 
like life safety risk, economic value, resilience to the 
community or other communities, things that we need to make 
sure we capture in our project reports. I believe, if we 
capture such factors, one of the things it would help us to do 
is make those projects better candidates for non-Federal 
funding because you see the overall massive plan for a 
community.
    We are also reviewing existing authorities that we already 
have, but have not fully utilized. WRDA 1986 had two sections, 
section 203 and section 204, very similar, except section 203 
is for studies and section 204 is for construction. 
Specifically, section 203 authorizes a non-Federal interest to 
undertake a feasibility study without Corps involvement, but 
allows the Corps to provide technical assistance during the 
conduct of this study, if requested by the non-Federal 
interest. Again, section 204 is very similar, except that is 
for construction.
    Another authority we are looking at is section 1043 of 
WRRDA 2014, which establishes a pilot program that allows a 
non-Federal sponsor to provide full management control for 
construction of water resource development projects. Similar to 
what General Jackson mentioned with WIFIA [Water Infrastructure 
Finance and Innovation Act]--that is an existing authority that 
we are looking at to see how can we better utilize it, as well.
    One final issue I will mention, and that is the section 408 
issue that the chairman mentioned. We recognize that there is a 
lot of angst about that and a lot of things that we need to do 
to try to improve. There are a number of actions that we have 
taken, and I would be glad to discuss that, given time, or if 
there are questions. We are also trying to finalize the changes 
that we have in place already and those that we are trying to 
actually put in place by a formal Engineer Circular within the 
next several months.
    The Corps stands ready to help in addressing water resource 
challenges of the 21st century, and you certainly have my 
commitment to continue to look at ways to improve. And thanks 
again for the opportunity to be here today.
    Mr. Graves of Louisiana. Thank you, Mr. Dalton. And I 
failed to mention you also did the June 17th project redundancy 
or expediting memo, as well, and something worth pointing out 
to committee members, those efforts to continue to reform the 
process.
    Our next witness is Mr. Mike Inamine. No, I didn't get that 
right. Inamine. And I remember last time I thought we had 
changed your name to Smith.
    [Laughter.]
    Mr. Graves of Louisiana. He is the executive director of 
the Sutter Butte Flood Control Agency.
    I want to thank you for being back, and look forward to 
your testimony. You are recognized for 5 minutes.
    Mr. Inamine. Thank you. Good morning, Chairman Graves, 
Ranking Member Napolitano, and members of the subcommittee. 
Again, my name is Mike Inamine, executive director of the 
Sutter Butte Flood Control Agency, or SBFCA, as it is known. 
Thank you for this opportunity to update this committee on our 
efforts to manage flood risk on the Feather River, just below 
Oroville Dam in northern California.
    Before beginning my testimony, I wish to acknowledge 
Congressmen LaMalfa and Garamendi on this committee, true 
partners who have supported our region's efforts from day one 
and throughout this remarkable past year. I would also like to 
thank Chairman Graves for his personal interest in the U.S. 
Army Corps of Engineers project delivery process.
    SBFCA is responsible for local implementation and non-
Federal sponsorship for flood projects in the Sutter Butte 
Basin, located 40 miles north of Sacramento. There are 95,000 
residents and $7 billion worth of assets protected by Corps 
project levees. SBFCA has benefitted from recent changes 
implemented by the Corps and a locally driven 21st-century 
financing approach that will hopefully support a new-start 
construction designation in the forthcoming 2018 Corps 
workplan.
    In 2014 and amended in 2016, Congress authorized the Sutter 
Basin flood risk management project for construction. In 2016 
SBFCA had already completed, or largely completed, a project 
that improved 36 of the 41 miles of levee improvements 
authorized by Congress in 2014, all at non-Federal expense.
    However, two issues arose in 2016. First, deficiencies were 
identified in a Yuba City levee previously declared safe. The 
second issue was that section 408 permission to repair the most 
critically damaged levee in the basin near Laurel Avenue was 
delayed due to cultural resource issues.
    Against this backdrop our nearly completed Federal project 
faced the ultimate test in the 2017 flood event. Unimproved 
levees started to unravel. Oroville Dam spillways started 
failing. And 188,000 residents from both sides of the Feather 
River were given, quote, ``1 hour to evacuate.'' A large State-
local flood fight ensued.
    To end the flood season on a somewhat happier note, all of 
the recently improved levees performed well. The unimproved 
levees were held together with flood fights, and the Oroville 
emergency spillway did not fail. But now we faced a years-long 
section 408 permission process to improve and repair severely 
damaged levees in less than 5 months before the next flood 
season. The pending section 408 permission was finally approved 
and 1 mile of levee was repaired. The adjoining 5 miles of 
badly compromised levees await completion through the Federal 
project.
    And then regarding the new section 408 permission for the 
Yuba City levee, we received section 408 permission in about 5 
weeks, a record time for a major repair with a number of 
complexities. There are three reasons I believe this occurred: 
Director of Civil Works James Dalton's recent guidance to 
delegate and streamline certain section 408 permissions; 
district and division commanders' prioritization of resources; 
and the simple fact that SBFCA was already on the ground doing 
the work.
    All major construction is complete. This section 408 
project has now been fully delivered. This leaves 5 miles of 
deficient and damaged levees. And this is where our story ties 
in to a 21st-century Corps partnership sometimes referred to as 
innovative financing.
    Non-Federal interests fund and build 88 percent of the 
project that was federally authorized in 2014, or 80 percent of 
the NED project, leaving the Federal Government with an 
investment of just $49 million to complete a $689 million 
project authorized in 2014. With 80 percent of the NED project 
already delivered and in the ground, there is a tremendous 
opportunity to leverage non-Federal investment, complete the 
project, and reduce the massive backlog of the Corps' unfunded 
authorized projects.
    Moreover, our economically disadvantaged, largely rural 
community has taxed itself to capacity and simply has nothing 
left to spare.
    Let me close with a few thoughts on Corps project delivery 
and the lessons of a remarkable past year. Oroville was a 
wakeup call for engineers around the world. Just because a 
structure performs well for 50 years is no indication it will 
perform tomorrow without ongoing thoughtful investment.
    We cannot rely on emergencies to get work done. But when 
they inevitably occur, emergency section 408 procedures are 
sorely needed. Local initiative should be leveraged to deliver 
Corps Civil Works projects. Many Civil Works projects can be 
delivered sooner and less expensively by non-Federal interests. 
We look forward to delivery of a 2014 WRRDA pilot project that 
explores local agency construction, as well as other project 
delivery proposals outside the existing paradigm.
    Public safety has already benefitted from recent direction 
from Civil Works Director James Dalton to delegate and 
streamline section 408 authorities. We appreciate this 
attention to real-world difficulties, and look forward to this 
guidance being expanded and codified.
    And finally, Corps resource allocation should be 
prioritized based on risk reduction, not who does the work.
    Thank you for your continued attention to this most 
important issue, and I look forward to your questions.
    Mr. Graves of Louisiana. Thank you, Mr. Smith.
    [Laughter.]
    Mr. Graves of Louisiana. I am going to move on to our next 
witness, Ms. Leah Pilconis, who is the senior environmental 
counsel for The Associated General Contractors of America.
    Thank you very much for being here today, and you are 
recognized for 5 minutes.
    Ms. Pilconis. Thank you. Chairman Graves, Ranking Member 
Napolitano, and members of the subcommittee, thank you for 
providing AGC with the opportunity to offer its recommendations 
on ways to speed up the completion of America's critical water 
infrastructure projects.
    My name is Leah Pilconis. I am AGC's senior environmental 
counsel. I have spent the last 17 years establishing and 
directing AGC's environmental program. I have represented AGC's 
more than 26,000-member companies in dozens of environmental 
rulemakings by preparing comments, testifying at hearings, and 
sharing the industry's perspective at meetings with the Army 
Corps of Engineers, U.S. EPA, and other Federal agencies.
    I work closely with the in-house environmental managers of 
many of the Nation's leading construction firms. I also support 
AGC's efforts to maintain up-to-date free resources on 
environmental compliance and sustainability that are open to 
the entire U.S. construction industry. AGC applauds this 
committee for its environmental streamlining work in WRRDA 2014 
and WRDA 2016, as well as the last two long-term transportation 
reauthorizations, MAP-21 and the FAST Act. We encourage you to 
build on this groundwork to further enhance efficiencies and 
tie up loose ends.
    Contractors find the Federal permitting process to be 
cumbersome and uncertain. This uncertainty is driving up 
project costs because it is being priced into bids, and it is 
causing construction delays, even after the contract is 
awarded.
    [Slide]
    Ms. Pilconis. AGC's flowchart, seen on the monitors, 
diagrams the dozens of Federal environmental approvals needed 
before a construction contractor can break ground on most large 
infrastructure projects. The chart shows that critical projects 
are getting caught on a NEPA [National Environmental Policy 
Act] treadmill. It also shows that time and money is being 
wasted on redoing various interagency consult studies and 
analyses.
    NEPA is triggered at the outset of major Civil Works 
projects. Each project normally requires an environmental 
impact statement that, on average, takes 4.6 to 6 years to 
complete. Each project also requires a Clean Water Act section 
404 permit, a process that carries on after the initial NEPA 
review. A section 404 permit also triggers a NEPA evaluation. 
It can take another 2.16 years to obtain an individual section 
404 permit. And the list of required approvals goes on from 
there, as illustrated by AGC's chart.
    AGC recommends that Congress require Federal agencies to 
follow a one-Federal-decision process, so there is just one 
NEPA review per project that ends with a single record of 
decision issued by the lead agency. In addition, Congress 
should require a nationwide merger of the NEPA and Clean Water 
Act section 404 permit processes. To reduce duplication, the 
environmental planning work performed during NEPA must satisfy 
the section 404 permit requirements.
    There should not be do-overs of the Endangered Species Act 
section 7 consults or the National Historic Preservation Act 
authorizations or the Coastal Zone Management Act consistency 
determinations, which are already a part of the initial NEPA 
review process. By realigning and enhancing engagement on the 
front end, Federal agencies will meet their statutory 
responsibilities more efficiently in the long run. This will 
ultimately reduce costs and get projects underway faster.
    But Congress also must limit the scope of reevaluations. 
There must be clear standards for when a previously approved 
environmental document needs to be redone. Otherwise, projects 
face a continued threat of shutdown. And overall, Congress 
should enact a specific deadline for completing the entire 
approval process.
    The construction industry also has great concerns regarding 
the frivolous and obstructive litigation that is delaying and 
sometimes defeating proposed projects. AGC urges Congress to 
consider a reasonable approach to citizen-suit reform to 
prevent the misuse of environmental laws. It is one thing to 
have a legitimate environmental legal concern; it is another to 
oppose a project based on not-in-my-backyard issues.
    AGC provides more specifics on all of these opportunities 
in its written statement, as well as additional recommendations 
on ways to expedite the section 404 permitting process without 
sacrificing environmental protections.
    Thank you again for the opportunity to testify, and I look 
forward to answering your questions.
    Mr. Graves of Louisiana. Thank you. Our next witness is 
Jill Jamieson, managing director from Jones Lang LaSalle.
    Thank you. You are recognized for 5 minutes.
    Ms. Jamieson. Chairman Graves, Ranking Member Napolitano, 
members of the committee, thank you so much for the opportunity 
today to address you on approaches to enhanced project delivery 
for water resources.
    My name is Jill Jamieson. Although I am not here today to 
represent my company, I have over 25 years of experience 
advising public authorities at the Federal, State, and local 
level on complicated project implementation. So I am purely in 
the area of infrastructure delivery, public-private 
partnerships, and traditional delivery.
    Over the past few years I have had the opportunity to 
advise a number of Federal agencies on the implementation of 
water resource infrastructure, including our good friends here, 
the Army Corps of Engineers, the Bureau of Reclamation, and 
others, as well as many of your own districts from local and 
non-Federal shareholders. So I advise both the Federal, State, 
and the local shareholders on a wide variety of projects.
    Before diving into the specifics of project delivery, 
though, I did just want to make one statement. There has been a 
lot of talk lately about the $1 trillion infrastructure bill, 
if that comes or not. I just want to put that in context. The 
McKinsey report just came out and said that we need about $7.7 
trillion in infrastructure investment by 2030 in the United 
States. So really--and excuse the pun--$1 trillion is a drop in 
the bucket, relative to the needs we have.
    A one-time cash infusion is not going to be the solution to 
America's infrastructure problems. We need a long-term strategy 
for building and maintaining this great Nation's 
infrastructure. We must also introduce reforms aimed at 
ensuring that our infrastructure is delivered and maintained in 
the timeliest and most cost-effective manner. It is bang for 
buck that we need to concentrate on in the magnitude of our 
infrastructure needs.
    In this sense allow me to set the record straight, or 
perhaps just reiterate what was said by the ranking member. 
Enhanced delivery models such as public-private partnerships 
are not a funding strategy. They are an infrastructure delivery 
tool. P3 does not equate to free money. Infrastructure, 
regardless of the delivery model, needs to be paid for, one way 
or the other, through taxes or through user fees or some 
combination thereof.
    But by linking funding to outputs and life-cycle asset 
performance, instead of to the black hole of ``let's feed more 
money into a project that may or may not be done,'' 
infrastructure can be delivered in a timely and more cost-
effective manner, maximizing the benefit for taxpayers. As a 
nation, we can no longer afford business as usual when it comes 
to our infrastructure. Our present delivery model subsidizes 
inefficiency, while rewording cost overruns and scheduled 
delays, and this cannot continue if we hope to address our 
infrastructure needs.
    With regards specifically to water resources, with 25 years 
of experience in only project delivery, I can assert 
categorically and without reservation that our current 
infrastructure delivery system is fundamentally flawed. Even 
when funding is made available, as you know, protracted 
appropriations, coupled with uncertainty about timing and the 
amount of funding, unnecessarily and exponentially escalates 
the cost of projects. Projects that should be done in 3 to 4 
years are taking three to four decades.
    Whether it is the Grand Prairie irrigation project, Olmsted 
Dam, we can talk for hours about examples--it should not take 
Americans a century to build a ditch, it simply should not. We 
can do this more efficiently. An estimated 9 out of 10 of our 
mega-projects, which are estimated at over $1 billion, are 
delayed, they are over budget, and they fail to deliver the 
public benefits that they were anticipating, 9 out of 10. 
Ninety percent, that is not a great track record.
    So the value proposition of enhanced delivery models such 
as public-private partnerships is that they provide greater 
security in terms of cost and schedule risk, in particular, 
through performance incentive by putting private capital at 
risk. You don't get paid until you deliver the infrastructure. 
That changes behavior. It definitely changes behavior. Things 
get done on time and on budget more frequently that way.
    Moreover, by linking design and construction with operation 
and maintenance, we build in a life-cycle management approach. 
Let's build these things to last and figure out how to fund 
them over the life of the asset, instead of hoping for future 
funding when we don't have it.
    Now I recognize some people, when they hear public-private 
partnerships, think privatization. That is not the case. This 
is not privatization. That is a ill-informed opinion. It is--or 
perhaps other things. But you own the asset. This is simply 
partnering and reallocating risks so that it can be better 
allocated.
    In my very wordy written submission I suggested a number of 
very specific legislative fixes. One thing I would say. To 
enable P3 or any enhanced delivery at the Federal level we need 
to address two things. One are fully federally owned 
infrastructure, such as inland waterways. The other are the 
costs shared.
    In 2014, through WRRDA, the Corps was given P3-enabling 
legislation, but it was a bit of a legislative head fake. It 
really didn't give them the appropriate authorities they needed 
to move forward. I think that would be helpful, if that was 
rectified.
    I know I am out of time, so I will cease here, but thank 
you so much for the opportunity to speak to you today, and I 
look forward to your questions.
    Mr. Graves of Louisiana. Thank you. You raised a number of 
excellent points and I enjoyed your testimony, so thank you. 
The next witness is Nicole Carter, specialist in natural 
resources policy from the Congressional Research Service.
    And I want to thank you again for your excellent testimony, 
very informative, and I look forward to your oral testimony. 
You are recognized for 5 minutes.
    Ms. Carter. Chairman Graves, Ranking Member Napolitano, and 
members of the subcommittee, my name is Nicole Carter, I am a 
specialist in natural resources policy at the Congressional 
Research Service. Thank you for inviting CRS to testify.
    I will start by providing context for concerns regarding 
Army Corps of Engineers project delivery, and then describe 
existing Corps authorities for alternative project delivery and 
financing.
    Each fiscal year only a subset of authorized Corps 
activities is federally funded. Ninety-six billion dollars of 
authorized Corps construction and dam safety projects are 
eligible for annual Corps construction appropriations, which 
have averaged $1.8 billion in recent years. The Corps 
construction account has declined as a percentage of the 
agency's discretionary appropriations from above 40 percent in 
the mid-2000s to 31 percent in 2017.
    Mr. Graves of Louisiana. Ms. Carter, I am sorry, would you 
mind pulling your microphone a little bit closer?
    Ms. Carter. Under standard project delivery, the Corps 
functions as a study and construction manager. Corps staff 
typically are responsible for completing the feasibility study 
and contracting for the project's construction, rather than 
non-Federal project sponsors leading these efforts.
    The Water Resources Reform and Development Act of 2014 and 
WRDA 2016 attempted to address frustrations among some 
stakeholders with the pace of work on Corps projects by 
allowing non-Federal entities, including private interests, to 
have greater roles in project development, construction, and 
financing. Under these authorities, additional non-Federal 
public and private investments may in the near term achieve 
progress on water resource projects, thereby potentially making 
Federal funding available for other projects.
    However, achieving these benefits through some of these 
authorities may commit or create expectations for Federal 
appropriations which have potential trade-offs for the Federal 
Government, including reduced future Corps budget flexibility 
and reduced Federal influence over the studies and construction 
projects receiving, expecting, and eligible for Federal 
support.
    Non-Federal project sponsors are now able to advance and 
contribute funds to Corps-led activities and lead authorized 
studies and projects. The cost of non-Federal-led activities 
are shared by the Federal Government as if the Corps had led 
the work. The entity leading the project or advancing the funds 
typically is eligible for Federal credit or reimbursement, 
subject to the availability of appropriations, for what would 
have been the Federal portion of project cost.
    GAO, in 2016, identified $4 billion worth of non-Federal-
led Corps studies and projects. GAO did not report on the total 
remaining potential reimbursement amount to cover the Federal 
share for these studies and projects.
    Regarding alternative financing, WRRDA 2014 directed the 
Corps to establish a pilot program for public-private 
partnerships, P3s, for 15 authorized Corps projects. In the 
explanatory statement for appropriations for fiscal year 2017, 
concerns were raised that the Corps was developing project-
specific P3 arrangements. The statement directed the Corps to 
develop a comprehensive P3 policy. A draft comprehensive P3 
policy is reportedly under agency review.
    Multiple reports, the Corps, and other observers have noted 
not only beneficial opportunities for P3s, but also various 
challenges in establishing a path for direct Corps 
participation, including Federal commitments to budget-based P3 
payments are scored as a capital lease or a lease purchase, 
which means that the full Federal cost of the agreement is 
scored when the P3 obligation occurs.
    The Corps currently lacks the authority to redirect or 
assess project-specific user fees to raise the revenues to 
commit to a long-term P3. It is unclear how many Corps projects 
could sustain or increase their user base if converted to a P3 
that required increased user fees or contributions.
    WRRDA 2014 also authorized a program for the Corps to 
provide direct loans and loan guarantees for navigation, flood 
risk reduction, and ecosystem restoration, as well as other 
infrastructure through the Water Infrastructure Finance and 
Innovation Act, WIFIA. To implement a Corps WIFIA program, an 
appropriation of funds is needed to cover the program's subsidy 
cost, which represents the presumed default rate on those 
loans.
    The use of the WIFIA approach by the Corps and for water 
resource projects faces various challenges, including the Corps 
has little experience with operating a loan program; project-
based revenue streams may be insufficient to repay WIFIA loans; 
in the past, similar loan programs for water resource-type 
projects reportedly have been held up due to relatively high 
subsidy cost requirements.
    This concludes my statement.
    Mr. Graves of Louisiana. Thank you, Ms. Carter. I again 
appreciate your testimony and appreciate you being here.
    I am going to first recognize the leader in water 
resources, who was the author of the last two WRDA bills and 
kept us on a good schedule--and I want to thank you very much--
the gentleman from Ohio, Mr. Gibbs.
    You are recognized for 5 minutes.
    Mr. Gibbs. Thank you, Mr. Chairman.
    General Jackson, we know the Corps is undergoing economic 
reevaluation of the Soo locks to build an additional lock in 
that complex. Due to the lack of alternative transportation 
modes for moving iron ore and other cargo in the Soo locks 
area, the Corps is analyzing alternatives. This includes a rail 
connection from the Minnesota mines to Lake Michigan.
    The Corps submitted costs to be less than $2 billion, 
although earlier estimates of this cost were three to four 
times higher than that amount. Could you provide me a 
description of how the Corps developed the $2 billion cost 
estimate?
    General Jackson. Sir, first of all, thank you for the 
question. We recognize the significant strategic importance of 
Soo locks. A major rehab report and a validation report were 
required for us to move forward on Soo locks. The major 
rehabilitation report was signed in December of this past year, 
so just 30 days ago. So we are on schedule with that.
    The validation report is running a little bit behind. That 
is the economic update that helps us determine what the 
economic value is, and helps us increase the benefit-cost ratio 
which will improve the budgetability of the project.
    So what we have done--I don't have the specifics of all the 
different calculations we have used, but I know that what we 
have tried to do is better understand the uniqueness of the 
material and the economic value that transits through the Soo 
locks that may not have been captured in our normal process, 
and that is why we are working to do subsequent work on the 
economics side, to make sure we capture that.
    We believe that a higher benefit-cost ratio will increase 
the budgetability, which gives us a better chance of getting 
the funding we need to do the work required there. And the 
major rehab report will also allow us to make a good case for 
what we believe are two of the larger size locks, which is what 
we want to have as an end state, going forward with Soo locks.
    James, do you have anything else you want to add to Soo 
locks?
    Mr. Dalton. No. With regard to the cost estimate, I was 
there at the site about a month ago. And I asked to get the 
details on it, which I am waiting to take a look at.
    But what we are trying to do is expedite, as General 
Jackson said, the validation report, which is looking at the 
economics. I think that we could probably do a little better 
than what the current schedule----
    Mr. Gibbs. When do you expect that to be completed?
    Mr. Dalton. Well, right now I think we are looking at next 
year for that. What I was trying to do is see if we can get 
that done within the next few months. And so that really is the 
long pole, if you will, in the tent of moving forward on this.
    Mr. Gibbs. Yes, because it has been an issue with me, as 
you know. And I know the cofferdam was built years ago and, you 
know, still going through all these studies.
    General Jackson, WIFIA, you know, was reauthorized. I have 
been working with my colleagues from Florida--Representative 
Mast--on the reauthorization of that. But can you elaborate how 
the Army Corps put into action goals laid out in WIFIA 2017, 
you know, so we can get going on that? I know there are some 
other comments that were made in testimony on this. So can you 
just elaborate how you are trying to move forward for the Corps 
to implement WIFIA provisions?
    General Jackson. Congressman, yes, sir. Thank you. We are 
taking an active role now in trying to develop--we have been 
working with the EPA on a potential Memorandum of 
Understanding.
    We recognize that the Water Finance Center that they have 
is tested, it works. They have competencies that we don't have. 
And what we want to do is try to figure out a way to use the 
competencies that they have to jumpstart our program and then 
help us better shape a program very similar that we can then 
incorporate into the Army Corps of Engineers and run.
    I appreciate the discussion on the extension of the WIFIA 
authority. I think that is key. I am not sure why it has taken 
us so long to take advantage of the opportunity that Congress 
has given us. But certainly in our discussions across the Corps 
and within the administration there is support for us to move 
forward on that. We are developing policy guidance right now 
with the administration, as I mentioned in my remarks, to try 
to help us administer this and do this right.
    So we are working harder than ever to try to get that 
sorted out, and----
    Mr. Gibbs. OK.
    General Jackson [continuing]. We will continue to need help 
from Congress----
    Mr. Gibbs. Quickly, I want to just touch on the project 
acceleration, you know, section 1005. And I know, with the 
delays there, the NEPA and then I know Ms. Jamieson, in her 
testimony, commented about, you know, the delays and the NEPA 
and working together. And I guess one question is the 3x3x3 
program that was supposed to be implemented, has that been 
helping or not? I mean what is--go ahead. I mean--I had the 
wrong person, I guess, sorry.
    Ms. Pilconis. Well, I had--I commented on the NEPA delays, 
but I am not sure I am familiar with the 3x3x3 program.
    Mr. Gibbs. OK. The 3x3x3 program was a program instituted 
by the Corps, where studies would be done in 3 years or less, 
no more than $3 million, and at different levels, a district 
level, a regional level, and a DC level would be working in 
conjunction, not consecutively, but concurrently. And that was 
supposed to speed up projects----
    Ms. Pilconis. OK, feasibility studies?
    Mr. Gibbs [continuing]. By about 50 percent, I believe.
    Ms. Pilconis. Feasibility studies?
    Mr. Inamine. Chairman Gibbs, if I may, I think we could--as 
a local project implementer, we were the pilot project for what 
later became 3x3x3--in order to address your question.
    Mr. Graves of Louisiana. Quickly, please.
    Mr. Inamine. And that is the planning component of the 
execution of a Civil Works project. We were probably--because 
we were a pilot project--and this is for the Sutter Butte 
Basin--we were probably an example of where it did work, where 
a project, a feasibility study that literally would have taken 
decades--and in our case, this thing, this feasibility study, 
was going forwards, it was going backwards, it got stalled for, 
literally, a decade. When this pilot project came out, which 
later became 3x3x3, the Corps delivered.
    Mr. Gibbs. OK.
    Mr. Inamine. They got it out.
    Mr. Gibbs. OK, thank you.
    I yield back, Mr. Chairman.
    Mr. Graves of Louisiana. Thank you. I am going to turn to 
Mrs. Napolitano. You are recognized for 5 minutes.
    Mrs. Napolitano. General Jackson, as you know, in July 
2017, Ranking Member DeFazio submitted several questions to the 
Corps and the Assistant Secretary of the Army in relation to a 
subcommittee hearing from that month. It is now January of 
2018, 6 full months, and after those questions were submitted 
we haven't gotten an answer. It is not really acceptable.
    I understand you--we take our oversight role very 
seriously. And the lack of a timely response by the Corps and 
the ASA's office call into question this administration's 
commitment to transparency and congressional oversight.
    Do you agree that 6 months is too long? What steps will you 
take to ensure that the congressional questions, both of the 
majority and minority, are answered in a timely basis?
    General Jackson. Congresswoman, I want to tell you that 
answering questions from this subcommittee and any Member of 
Congress is of top importance to the Army Corps of Engineers 
and the administration.
    I am not exactly sure what the status of those are, but I 
will find out and get them moving and get a response back to 
your staff right after this hearing.
    Mrs. Napolitano. Would you, please? I would appreciate it, 
and I am sure the chairman would appreciate it.
    Also, the central theme of today's hearing is alternative 
project delivery mechanisms, especially pertaining to funding 
of Corps' projects and studies. As you know, I have made a 
point of the lack of consistent available appropriations to the 
Corps, which has resulted in fewer Corps-led projects being 
undertaken. Communities are struggling.
    In response, Congress provided new or revised authorities 
to allow local sponsors to contribute or accelerate funds to 
the Corps for projects and studies, or take over planning and 
construction altogether from the Corps.
    And in your current portfolio, what percentage of the Corps 
projects and studies are being pursued under traditional models 
of appropriated statutory cost-related Federal funds?
    And then, of course, it begs the question: What percentage 
of projects are being pursued with advanced or contributed 
funds? We need a breakdown. And what projects are being pursued 
under section 203 or 204 of WRDA 1986?
    We have had concerns using alternative methods for 
addressing Federal share of Corps projects that can skew the 
priorities of the Corps, in essence allowing projects from 
wealthier communities to proceed because contributed funds were 
made available. How does the Corps safeguard against allowing 
contributed funds to change the Corps' priorities? That is a 
mouthful.
    General Jackson. Those are a lot of questions, 
Congresswoman. I don't have the answers to the specific numbers 
of section 203, section 204, contributed funds, accelerated, 
and advanced funds. I can get that, and we will respond to that 
as quickly as we can to you and your staff, and then the 
members of the subcommittee.
    As both James and I mentioned in our testimony, we believe 
that those are authorities that need to be used more, and we 
need to spend more time to execute those and incentivize folks 
to use those capabilities more than we do today.
    So we are committed to moving forward and trying to make it 
easier for project sponsors to engage with the Corps and use 
those authorities to get the projects delivered.
    Mrs. Napolitano. Thank you.
    Ms. Jamieson, some outside groups are being critical of the 
P3 model because it can entail a potential loss of local 
control. And it could result in decreased labor standards for 
long-term maintenance concessions, could result in what might 
currently be public information being transformed into 
confidential and proprietary information that would no longer 
be available.
    The committee has also issued a report on P3s that noted 
that this policy should not be viewed as a new funding stream, 
but, more realistically, as an alternative financing mechanism 
paid for, in one way or another, by the taxpayer. Maybe even 
twice.
    Do you agree that these are valid concerns?
    Ms. Jamieson. Thank you for the question. It is very hard 
to generalize when you talk about P3, because every contract is 
very different. And so, it would be incumbent on the 
administration, I think, or the Federal agencies, if they were 
to engage in P3, to make sure that those concerns are 
addressed.
    So often--and in California, University of California, 
Merced--it is not a water project--a very large P3 that was 
recently done, labor concerns were paramount in structuring the 
deal, using project labor agreements, making sure the unions 
were engaged in part of the solution. So P3 does not need to 
come into conflict with labor. And, if done right, it will not. 
In fact, it will enhance them.
    In terms of transparency, again, it is how you write the 
contract and the arrangement. And in that case you do need to 
ensure that there is sunshine into what the deal terms are. And 
again, we use open-book often, which is much more transparent 
often than other things. It can be done that way.
    But you are right to express concern, because if done 
poorly, these are dangerous instruments. If done well, they can 
be a surgical tool that can be very useful.
    Mrs. Napolitano. Thank you, Mr. Chair. I have another 
question, but it will wait.
    Mr. Graves of Louisiana. Thank you. We are going to go to 
the next Member, but we are actually going to give you five 
times more time than anyone on the subcommittee had initially 
agreed to, so we are going to go to the gentleman from 
Illinois. You are recognized for 5 minutes.
    Mr. Davis. Five minutes? Does that mean 25 minutes, Mr. 
Chairman?
    Mr. Graves of Louisiana. No, because everyone had agreed 
you initially were going to get 1 minute.
    Mr. Davis. Well, I would ask unanimous consent to take 25.
    Mr. Graves of Louisiana. Object.
    Mr. Davis. I see no objection.
    Mr. Graves of Louisiana. No, seriously, I want to turn to 
the gentleman from Illinois----
    Mr. Davis. I hear no objections. Thank you, Mr. Chairman.
    Mr. Graves of Louisiana. And you are recognized for 5 
minutes.
    Mr. Davis. Mr. Dalton, I will start with you, since now I 
am limited to 5 minutes, instead of 25 minutes.
    This is an issue I brought up to many at the table and to 
this committee numerous times, the Navigation and Ecosystem 
Sustainability Program, NESP. At its confirmation hearing late 
last year, President Trump's nominee for ASA [Assistant 
Secretary of the Army] for Civil Works, R.D. James, testified 
that he would work with Congress to ensure there is a path 
forward on NESP.
    Mr. Dalton, will you make that same commitment today?
    Mr. Dalton. Absolutely I will. In fact, we have been 
looking at that and will do what we can to pursue that with the 
administration, considering the current BCR [benefit-to-cost 
ratio].
    Mr. Davis. And I think all of you at the table are well 
aware that both the House and the Senate put language in 
disagreeing with the need to invest, I would think, $7 million 
in 3 years to restudy the economics on this issue. So I would 
hope that we can continue to work together to address those 
concerns that obviously, in a bipartisan way in the House and 
the Senate, we have. So thank you for that.
    I got another question, too, on the ongoing problems many 
of us on this subcommittee are aware of in regards to section 
408. While some on the subcommittee argue that the issues 
dealing with section 408 are due to a lack of funding, I would 
argue they have to do with an expansion of the Corps' authority 
in its implementation of section 408 permissions. And I 
appreciate the Corps' recognition of the need to address the 
many concerns with section 408. Evidenced in the recent memo 
signed by you on January 12th, the memo intends to provide 
interim guidance on changes to section 408 implementation while 
a final Engineer Circular is completed.
    But after reading it, unfortunately the memo does little to 
effectively help local flood protection project sponsors who 
have been impacted by the Corps' implementation of section 408 
in recent years. And in my opinion, it is due to that misguided 
perception of authority by the Corps in applying section 408 to 
local flood control projects.
    In recent years the Corps has sought to change the 
decisionmaking role of non-Federal sponsors of local flood 
protection projects by requiring them to comply with the 
agency's relatively new section 408 process, instead of the 
relevant flood control regulations under the Federal flood 
control regulations in 33 CFR Sec.  208.10.
    Can you explain the reasoning behind the Corps' expansion 
of authority under section 408 over the past decade to include 
non-Federal sponsors of local flood protection projects?
    Mr. Dalton. Thank you, Congressman. First of all, I would 
like to say that we are also looking at that authority and if 
we have expanded it or what we need to do to try to have a 
better process in place.
    One of the things that I am trying to do to address all of 
the section 408 frustrations is get to those individuals that 
have gone through it to see what we can do, first of all, to 
improve the process. Recently on a Missouri River levee, there 
was a complaint about that. A gentleman said that it has taken 
us 6 years and $6 million to get to the same point. And so my 
intent there is to conduct an AAR [after action report] with 
that individual to find out where we went astray with the 
process.
    That just addresses the fact that we are looking at the 
process to see what can we do to improve the process.
    As part of the conversation I had with him was very similar 
to what you asked, and that: did the Corps extend section 408 
beyond navigation into flood risk, et cetera? I committed to 
him as I commit to you that that is what we will take a look 
at, just to make sure, and verify that we are within the 
authority, but more importantly to try to find ways to 
streamline and get to a decision much faster with less cost.
    Mr. Davis. Well, thank you, Mr. Dalton. I think all we are 
asking for at this subcommittee, it is the same thing I have 
talked to General Jackson about and others within the Corps, 
and to the ASA nominee, Mr. James: we want consistency. Our 
local sponsors need consistency out of the Corps of Engineers 
when it comes to section 408 implementation. And retroactively 
asking for things to be done when permits had already been 
issued, I think, is something that the Corps seriously needs to 
take a look at.
    Again, I characterize these changes as misguided. And I 
would hope that we would continue to be able to work together 
to make these changes necessary to have that consistency that I 
think we all want on all sides of the aisle. And frankly, I 
think it is what the Corps districts want and deserve.
    So thank you, Mr. Dalton. Thank you to the panel. And Mr. 
Chairman, thank you. I now yield back my 4 seconds.
    Mr. Graves of Louisiana. Thank you. We now go to the 
gentleman from California, Mr. Garamendi, for 5 minutes.
    Mr. Garamendi. Thank you, Mr. Chairman.
    First, Mr. Inamine, thank you so very much for the 
exceptional work that your team has accomplished on the Sutter 
Basin. I see my colleague, Mr. LaMalfa, here. And he and I get 
to share this 39-mile section of the Feather River.
    I would draw the attention of the committee to the map on 
the back of Mr. Inamine's testimony. And if you will notice, 90 
percent of this project has been completed without any Federal 
money, a project that started in 2014. We have 5 miles 
remaining, and we need a new start.
    Mr. Dalton, we have talked to you about this. General 
Jackson, we have talked to you about it. And I intend to 
continue talking about this until we do get a new start, or 
maybe we will just get ourselves something called an earmark, 
and we can get things done quickly. That would be very 
convenient.
    I would point out that this project, thus far, 90 percent 
of it, 100 percent local funding. This is innovative financing 
to the fullest extent. The remaining 5 miles we need a new 
start and about 49 million Federal dollars, 25 million local 
dollars. So we ought to get this thing finished, because we 
have another 22,000 people at risk. And if it is a really big 
flood, it may get to 100,000.
    Mr. Inamine, thank you so very much for your work on this. 
If you had a new start in this fiscal year, when would you be 
able to complete this project?
    Mr. Inamine. Well, this would be a Corps project. We 
believe it could be completed within 2 Federal fiscal years, by 
2019.
    Mr. Garamendi. One and done. All of it within 5 years?
    Mr. Inamine. This--we believe--we are not the experts on 
this, but we believe this is a great candidate for a one-and-
done project, yes.
    Mr. Garamendi. Great. Thank you very much. I want to now 
turn to the disaster supplemental and bring the attention of 
the full committee to the disaster supplemental. This is the 
third supplemental--this is a $10 billion Corps of Engineers 
program in the disaster supplemental. We have just heard what 
local people are willing to do, at least in California, and I 
suspect in other parts of the Nation.
    However, the disaster supplemental has a very special 
opportunity for certain parts of the Nation. The bill, as 
presented, waives cost-sharing requirements for ongoing Corps 
projects, ongoing Corps studies, and new Corps studies, and 
ongoing construction projects. That is $10 billion with no 
local participation.
    We just heard about a local participation in California, 
which will be 90 percent local. What does this mean to other 
projects around the Nation? I am quite sure that Puerto Rico 
probably could not provide any local. But I am quite sure that 
Houston, Texas, could. But the bill does not require any local 
participation. The question that I am concerned about is what 
does this mean for the rest of the Corps projects?
    So this is a question to General Jackson. If we appropriate 
the $10 billion for the Corps projects in hurricane-impacted 
areas, can you explain to me what this impact will have on the 
Corps' fiscal 2019 budget?
    I think all of us ought to be curious about this. So do you 
have any indication what it would mean as you prepare for the 
2019 proposal?
    General Jackson. Specifically, I would say, Congressman, 
that the projects where we are able to align supplemental 
dollars against to repair that might be in the fiscal year 2019 
budget would therefore not need the funding that was previously 
contemplated for them in fiscal year 2019, and we can then use 
those funds for other projects that are not designated for 
funding in fiscal year 2019.
    In my mind, any additional authority or funding that we get 
from Congress to address Corps projects just means that we can 
then address significantly more projects that are out there 
with the extra funding that is provided.
    Mr. Garamendi. So you anticipate that this supplemental 
additional $10 billion for the Corps of Engineers, there will 
be no local participation, funding participation? We will have 
no impact on the normal and ongoing Corps of Engineers request 
for funding from the Congress?
    General Jackson. Congressman, I would say that it wouldn't 
have any negative impact whatsoever. All it does is allow us to 
address current needs that were impacted by the storm, and then 
it allows whatever funding we would get under our budget 
authority to be able to apply that against other projects that 
didn't qualify for the supplemental appropriation.
    Mr. Garamendi. Very good. And may I remind you that we are 
looking for a new start to complete a $689 million Corps-
authorized project and get it done within 2 years--5 years, 
start to finish? So let me just remind you we are looking for a 
new start.
    General Jackson. Acknowledge all, sir.
    Mr. Garamendi. Thank you. I yield back.
    Mr. Graves of Louisiana. Thank you. I go to the gentleman 
from Kentucky. Mr. Massie is recognized for 5 minutes.
    Mr. Massie. Thank you, Mr. Chairman, and thank you for this 
wide array of witnesses that are very relevant to the topic.
    I want to thank Ms. Carter from CRS. I think we should have 
a witness from CRS at every hearing, because they are a very 
reliable and consistent source of information for us. The 
people on the dais here change over the years, but the policy 
remains consistent a lot of times. And when you try to go and 
find out what happened before we got here, the CRS report is a 
great resource. They are also a good reminder of what was in 
the bills we passed when we were here.
    And your testimony actually informs my question, Ms. 
Carter. And my question is going to be for the Corps, actually. 
In your testimony, Ms. Carter, you point out that we directed 
in prior WRDAs that the Corps should revise their section 408 
regulations, guidance, and that the existing guidance was set 
to expire on September 30, 2017, and that the Corps will have 
further regulations published on section 408 soon. When can we 
expect the section 408 regulation, the updated versions that 
implement the things that were prescribed in WRDA 2016?
    Mr. Dalton. Thank you, Congressman. We intend to have that 
Engineer Circular published no later than summer of this year. 
And I am working to try to get that out sooner.
    The memorandum that the chairman referenced was just to lay 
out and make sure that we knew what we wanted to include in 
that circular. There are a few pieces that we need to pin down, 
but the intent is to get it done this year by the summer.
    Mr. Massie. Ms. Pilconis, I was fascinated by your 
flowchart here. As an engineer myself, I realize these things 
can get pretty complicated. But I just want to ask you in 
general. How do we simplify this flowchart that you showed us? 
Because hopefully, simplification would mean quicker 
approvals----
    Ms. Pilconis. Yes, absolutely. Thank you for that question.
    We offer several recommendations in our written testimony, 
but to just cite a few, we are looking for ways to reduce 
duplication and overlap without sacrificing environmental 
protection. So one of the main things that we think would 
really streamline the process would be a nationwide merger of 
the NEPA and the section 404 permitting processes, because 
those two processes take the longest time and are the most 
costliest.
    So with a merger of those two processes, when the agency--
so the Corps--is engaged in the NEPA process, they would be 
ensuring that the information that is collected--so the 
environmental documentation, the studies that are being done, 
the analyses, the mitigation that is being decided--that it 
will be sufficient to satisfy the permitting requirements, so 
that you don't have a lot of what I had said were do-overs with 
the interagency consults related to ESA [Endangered Species 
Act], coastal zone determinations, historic and cultural 
property issues when you go to do the permitting process.
    But then, what is very important also is for Congress to 
determine what is a material change that warrants relooking at 
approved environmental documents, because there are a lot of 
reevaluations that are being done for changes that are really 
very small and not significant changes to the construction 
project. And that causes a lot of duplication.
    Mr. Massie. Ms. Jamieson, I appreciate your realistic 
appraisal of P3s. They are not a panacea, money doesn't 
magically appear just because you have P3 funding. But their 
intended purpose, I think, is to align the incentives correctly 
and in the right timeframes.
    So, I am interested in the fact that in WRRDA 2014 we 
prescribed, as Ms. Carter pointed out, 15 pilot projects. And 
it doesn't seem like we are getting very far on those pilot 
projects. To use a river term, I think we hit a snag.
    Again, I want to ask the Corps--either General Jackson or 
Mr. Dalton--where are we on those P3 projects? Was there going 
to be--I know Congress--I think we are at the point now where 
Congress is looking for more guidance. And so where are you in 
that process of providing us guidance?
    General Jackson. Congressman, I will answer that one. We 
have one P3 project. That is Fargo-Moorhead project up in North 
Dakota.
    Mr. Massie. Is that out of 15?
    General Jackson. Pardon me?
    Mr. Massie. One out of the fifteen?
    General Jackson. It is 1 out of the 15, right.
    Mr. Massie. OK.
    General Jackson. We have evaluated a number of other 
projects. And for whatever reason, we are not able to develop a 
project that would meet all the P3 parameters, didn't have the 
right funding mechanisms or sponsors that were available to be 
able to do a project under a P3 construct.
    But Congress also came back to us and said, ``Hey, look, 
you need to develop a P3 policy.''
    The Fargo-Moorhead project has been approved and funded in 
the workplan. We don't really have any policy guidance that the 
administration has approved that allows us to really discuss 
and frame up how we will actually select and then fund in the 
future P3 projects. That is a work in progress, something we 
are working with the administration right now, and that is what 
is left to be done to move forward on P3s.
    Mr. Massie. All right. We will anxiously await that. I 
yield back.
    Mr. Graves of Louisiana. Thank you. The gentlewoman from 
Texas, Ms. Eddie Bernice Johnson, is recognized for 5 minutes.
    Ms. Johnson. Thank you, Mr. Chairman. And let me thank the 
witnesses for being here, and express my appreciation for the 
work that the Corps does do. And I know that the work is 
getting further and further behind.
    There was a recent U.S. Department of the Treasury 
commissioned study that found--and I quote--``a lack of public 
funding is, by far, the most common factor hindering the 
completion of transportation and water infrastructure projects, 
affecting 39 of the 40 projects reviewed.''
    In the beginning of 2017, the Harbor Maintenance Trust Fund 
had an excess balance of more than $9 billion. I really have a 
question as to why you have that much money with such massive 
backlog of water projects. Could you give me some explanation 
as to why that is?
    General Jackson. Yes, Congresswoman. Let me give you a 
start. The 2018 President's budget allowed a distribution from 
the Harbor Maintenance Trust Fund for the Corps of $965 
million, which is the highest distribution that we have ever 
had in history.
    As you know, the Harbor Maintenance Trust Fund is a 
revolving fund. It is managed by the Department of the 
Treasury. And the administration allows us to use those funds 
to address the maintenance requirements in our harbors across 
the Nation.
    In fiscal year 2017--just some statistics--receipts went 
into the Harbor Maintenance Trust Fund of $1.47 billion based 
upon the taxes that were assessed. We had an end-of-the-year 
balance in fiscal year 2017 of $9.1 billion. We do have a 
significant balance that remains. I think the industry has been 
very emphatic that we use all the money that is collected.
    I think, from the Corps' perspective, we have requirements 
to be met, but there are very difficult parameters that the 
administration uses to allow the use of Harbor Maintenance 
Trust Funds, and I don't have all the answers for why that is, 
and I can't really address what our strategy is to bring that 
backlog down.
    Ms. Johnson. Is there anyone else with any comment on that?
    Mr. Dalton. No, ma'am. What we will do is provide a 
explanation back to you with the details of what you are asking 
for. But I don't have a complete answer to your question right 
now.
    Ms. Johnson. OK, thank you. And we have heard a lot about 
streamlining the Federal processes and tapping into new and 
creative funding streams as a means of funding public 
infrastructure projects. I heard the comments about the public-
private partnerships. How realistic does that seem to you in 
this area of these types of projects?
    General Jackson. Congresswoman, I am optimistic. I think 
there is a lot of opportunity for us to take advantage of 
different funding sources. I mean this is a math problem. The 
bottom line is we have more requirements out there in 
infrastructure than the Federal budget can support today. So we 
must look at other sources: State, local, private investments. 
But there are a lot of things that we have to do to incentivize 
folks that want to do that. And the Corps of Engineers, we have 
a role in that, and I think one of the things that we are 
looking at is trying to streamline the way we can deliver 
projects, streamline the way we can partner with others.
    And we are working with the administration and the Congress 
to develop the incentivisation piece that allows this to be a 
good business proposition. Because, at the end of the day, the 
projects that the Nation requires must be paid for, they must 
be delivered, they don't need to be on the books for decades. 
They are not doing anybody any good. And we just can't do that 
with the Federal budget today, there are just too many demands 
on it. So we have to look outside the Federal appropriation.
    Ms. Johnson. Do you have a quick example of which you can 
share where you think it would work?
    General Jackson. Well, I think there are opportunities for 
specific projects around the country where they--we have 
sponsors that----
    Ms. Johnson. Could you just name one? I mean I--be as 
specific as you can.
    General Jackson. I will take the Charleston Harbor, for 
instance. Charleston Harbor has already--or Jacksonville 
Harbor, two harbors on the east coast who have stepped up and 
recognized that the Federal appropriation is not going to get 
their projects delivered as fast as they would like, and so 
they have entered into advanced funds agreement with the Army 
Corps of Engineers to put forth funding to accelerate the 
completion of their project.
    Under the advanced funds agreement, they are eligible for 
reimbursement, so the administration will work to do that, and 
that is the commitment that the administration makes. But that 
is an example of an alternative funding arrangement that has 
been executed that today is in the works, and two projects will 
get done as a result.
    Ms. Johnson. Thank you. My time is up.
    Mr. Dalton. Could I just make a comment to that? One of the 
things that we are looking at now is to see how we can actually 
get some of our projects executed without necessarily requiring 
the Corps of Engineers to be the lead on them, or to be the one 
that manages the construction or that conducts the studies. We 
think that will leverage private industry in a different way 
than just private financing. It actually takes advantage of any 
difference in execution methods that we may not have 
considered. And that is under section 203 and 204.
    And, for whatever reason, section 203 is one of those 
authorities out there that we hadn't fully implemented, or 
really hadn't implemented. We are developing guidance for that 
right now, so I don't think we have a lot of projects out 
there. But I can tell you that we have identified a project for 
section 203, we have several in section 204, and we are looking 
at an authority of section 1043, which allows a non-Federal 
entity to manage the construction of projects. So that is one 
way we think we can leverage private support.
    Mr. Ferguson [presiding]. Thank you. Next the gentleman 
from Texas, Mr. Farenthold, is recognized for 5 minutes.
    Mr. Farenthold. Thank you very much. And, Major General 
Jackson, along the Texas coast there are dozens, if not more, 
authorized but unfunded Army Corps projects, like reservoirs, 
levees, many of which fell within the hurricane disaster area. 
Had these projects been fully funded and completed in a timely 
manner, would the amount of property damage and possible loss 
of life been less?
    General Jackson. I think the answer to that, Congressman, 
is yes. All these projects are designed, in many cases have 
life-health-safety components to them. Without going into very 
specifics, I wouldn't know how to actually quantify that per 
project. But I think that projects that we recommend to 
Congress for an investment decision have all the components 
that you just described.
    Mr. Farenthold. And how do you think the current backlog of 
Corps projects--you know, $96 billion of projects waiting to be 
done across the country, I mean, that has got to be stuff you 
guys stay awake and worry about and keep you busy.
    Is the fact that there is so much stuff undone in the 
normal course of business--is that going to interfere with the 
disaster recovery efforts and emergency repairs made necessary 
not only by Harvey in Texas, but by Irma and Maria in other 
parts of the country?
    General Jackson. Congressman, the answer to that is no. We 
are fully funded under the Stafford Act right now to address 
the requirements that we have been asked to perform under 
mission assignments from FEMA in Texas, Florida, the U.S. 
Virgin Islands, and Puerto Rico. That work will go on, and it 
goes on with the support of a multitude of Corps of Engineer 
employees from across the country. We leverage our whole 
workforce, all----
    Mr. Farenthold. All right, but what about availability of 
assets to do that, be they Corps assets or, in the case of 
reopening waterways, the availability of dredges?
    General Jackson. Sir, the industry has been very, very 
responsive on the dredging, specifically. When we have had a 
natural disaster come up, we have worked with industry using 
very nimble contracts to be able to get them into the fight and 
get them where the dredging needs to be.
    And so, it is just an opportunity to applaud the industry 
for their responsiveness, and our ability to work with them and 
NOAA and the Coast Guard to put them in the places where they 
need to be.
    Mr. Farenthold. And so you all make a lot of funding 
decisions on what projects to recommend through the OMB and to 
Congress for funding. I know there is a traditional cost-
benefit analysis associated with that. How does safety come in?
    For instance, I have a project that is very important to 
me, the widening and deepening of the Port of Corpus Christi. 
It is going to have a huge economic impact on the area that I 
grew up in and live in. But it is probably not going to save 
anybody's life. Fixing some of the Houston area reservoirs 
might actually save lives. How does that factor in you all's 
decision for funding?
    General Jackson. Congressman, I believe that when we make 
project recommendations or budget recommendations to the 
administration, it includes due consideration of all the life-
health-safety issues. And certainly, even if a project doesn't 
have a benefit-cost ratio that we believe, based on budget 
guidance that we receive, makes it a budgetable candidate, we 
still recommend these projects, based upon the need of the 
people and the location where they are proposed to be built.
    So I think we do consider that, we do make those 
recommendations as part of our budget submission for the 
administration to consider with all other factors.
    Mr. Farenthold. And then, General, I have got one more for 
you that I am going to also ask a couple other members of the 
panel. What effect do you think would repealing the ban on 
earmarks--how would it affect the Army Corps' effectiveness and 
efficiency and the timely delivery of projects?
    General Jackson. Well, Congressman, I think the only thing 
that I am qualified to answer is the timely delivery of 
projects. So, for instance, if there was an earmark ban lifted 
and you made an earmark for one of the particular projects that 
you just mentioned and gave me full funding so that I could 
finish it, then we would be able to deliver that project, and 
it would not necessarily compete, as projects do today, across 
the full spectrum of the portfolio that we manage that is 
represented in the $96 billion that we reference.
    So, in that particular case, you know, for a unique spot on 
the globe, that is----
    Mr. Farenthold. I am running out of time, and I appreciate 
that, but I did want to get Ms. Pilconis and Ms. Jamieson's 
answer to that question, as well.
    Microphone, please.
    Ms. Jamieson. Sorry about that. In terms of--if full 
funding were provided earmarks, yes. I mean it certainly--it is 
earmarked whether it is spread out over many years or upfront. 
But it can be integrated into a P3 through availability 
payments and other things. So yes, it could be helpful in 
delivery.
    Mr. Farenthold. Ms. Pilconis, did you have anything you 
wanted to add?
    Ms. Pilconis. For our members it is just important to see 
the full use of the trust funds being put for their intended 
purpose, and that the funds aren't diverted for other uses.
    Mr. Farenthold. All right. Thank you very much. I see my 
time has expired.
    Mr. Ferguson. OK, next we recognize Mr. Lowenthal for 5 
minutes.
    Dr. Lowenthal. Thank you, Mr. Chair, and I thank you, the 
chair also, for holding this hearing. And I think we can all 
agree that the Army Corps and Congress should look for better 
ways to make sure that needed projects are delivered to our 
communities without added delays and without additional 
expense, and that we look for ways of creative financing.
    But I want to return to one of the focuses of this 
committee, and that is on the issue of regulatory streamlining. 
And first I would like to ask permission to enter into the 
record a recently completed paper by the Center for American 
Progress entitled ``The Benefits of NEPA,'' if I may enter that 
into the record.
    Mr. Ferguson. Without----
    Dr. Lowenthal. Thank you----
    Mr. Ferguson. Without objection.
    Dr. Lowenthal. Thank you, Mr. Chair.

        [``The Benefits of NEPA'' report referenced by Congressman 
        Lowenthal is on pages 186-195.]

    Dr. Lowenthal. You know, as we engage in the issue of 
regulatory streamlining, we must make sure that these efforts 
do not erode the landmark protections and the processes that 
ensure that large infrastructure projects are planned and 
constructed with care for our environment and protection of our 
local communities.
    For example, in my district I hear quite frequently how 
NEPA and other environmental laws have enabled better 
decisionmaking, and how these processes have often saved a 
project time or money and have helped to find innovative 
solutions to difficult problems.
    So, for example, in the Everport project, which is a port 
expansion at the Port of Los Angeles, which is just immediately 
adjacent to my district, during the NEPA review, the EPA 
expressed concerns about the project's air quality and the 
human health impacts, particularly on low-income and minority 
communities that happened to be immediately surrounding the 
port.
    In the final EIS, the Army Corps strengthened an air 
quality mitigation measure to specify that all the dredging 
equipment be electric, a provision that reduced the project's 
construction emissions, while still allowing the project to 
move forward.
    You know, this certainly can't be the only example of how 
NEPA has produced a win-win for both the economy and the 
environment. So my question is to Ms. Carter, to General 
Jackson, or to Mr. Dalton. In your experience, how does the 
NEPA process work on the ground? If some critics are to 
believe, worthwhile projects are delayed for years by fringe 
activists who have no attachment to communities. I would like 
to know if that is really true or not.
    And I want to follow, especially in the answer from Ms. 
Carter, that a recent review by the Congressional Research 
Service--this follows up on a question from my colleague from 
Texas--that said that you have investigated the cause for delay 
of project development, and you found that of the 40 projects 
reviewed--or this may have been the Department of the Treasury-
commissioned study, both CRS and the Department of the Treasury 
have commissioned a study--that 39 of the 40 projects that were 
reviewed, the real delay is funding, not NEPA.
    So I would like to ask your--you know, here. What happens 
on the ground? Is NEPA a major cause of project delay? And what 
are your experiences on the ground with how NEPA actually 
works? I would like to hear.
    And what recommendations would you make to us about that?
    Ms. Carter. Thank you for the question. As you know, CRS 
does not take a position or make recommendations. The study 
that you identify is the AECOM study, the commission for the 
Build America Investment Initiative. It reviewed 40 projects 
and identified, through that review, what were some of the 
principal elements that were affecting the project being able 
to be delivered. And the first one identified was Federal 
funding. Consensus was another one. And a fourth one was 
regulatory issues. But that is relevant to those 40 projects. 
Additional analysis on a broader set of projects was not 
available from that study.
    Specifically regarding Army Corps of Engineers projects and 
NEPA, it is an integrated process that the Corps uses for 
developing the feasibility study with the NEPA analysis. So you 
can't really parse out how long certain pieces take.
    I am not the NEPA expert at CRS. If there are additional 
questions specifically regarding NEPA writ large, we can take 
those questions for the record. Thank you.
    Dr. Lowenthal. Any other comment? I know I just have a 
minute, very----
    Mr. Dalton. Congressman, I would say that, one, we are not 
looking at NEPA as the bad thing causing bad things to happen 
to projects. I think what we are all talking about and looking 
for when we talk about a regulatory streamlining for looking at 
our environmental compliance is with the one Federal decision, 
we are just looking to try and have more collaboration, earlier 
collaboration, and do everything to identify all the 
requirements one time and go down that road once, as opposed to 
doing it in phases.
    I think we are trying to do that better within the Corps of 
Engineers. But certainly there are areas of improvement. But by 
no means are we looking to eliminate the departmental 
requirements----
    Mr. Ferguson. Mr. Dalton, the gentleman's time has expired.
    Dr. Lowenthal. Thank you. Thank you, and I yield back.
    Mr. Ferguson. Thank you. So next I would like to recognize 
the gentleman from Texas, Mr. Weber.
    Mr. Weber. Thank you, Mr. Chairman. I want to address some 
comments that were made earlier by our friend across the aisle 
from California about the recovery of Hurricane Harvey and the 
Army Corps funding. I think he said $10 billion. He said there 
was no cost share. Well, I wanted to remind everyone that, you 
know, there was a lot of lives lost.
    Even in Hurricane Ike on the gulf coast of Texas, and we 
didn't get hardly any FEMA help then, and it is a huge area. We 
have been asking for, as the gentleman here knows, some barrier 
protection from the hurricanes. It is not a question of if 
Texas gets a hurricane, it is only a matter of when that is 
going to be.
    So we would like to be proactive and get what is known as 
the Ike Dike funded, where we protect lives. There are about 
6\1/2\ million people that live on the upper Texas gulf coast. 
We produce--estimates vary--from 60 to 80 percent of the 
Nation's gasoline, jet fuel. So it is a huge, major economic 
driver, and there is a lot of lives, families, homes, and, of 
course, industry there, and jobs associated with that.
    So, you know, if we can be proactive, we can keep that from 
happening again, and that is one of the reasons I am glad we 
are having this hearing.
    Ms. Pilconis--is that how you say it? I want to come to 
you. I am fascinated with your list of 10 items that you say 
could make things better. You say in your testimony the 10 main 
opportunities for Congress to minimize delays during project 
planning. Have you shared this list with anybody prior to 
today?
    Ms. Pilconis. We have shared these concepts with others, 
yes. Not necessarily in that exact form.
    Mr. Weber. Going back how far, how long?
    Ms. Pilconis. We have been talking about these things for 
about a year now.
    Mr. Weber. About a year. OK. So you had 10 main 
recommendations, if you will. It is almost like this is the 
bible, right?
    Were there other recommendations that you had that you 
could share with us in written form later?
    Ms. Pilconis. Yes. And actually, I should add to what I 
said. More broadly, AGC has been working on the streamlining 
initiative of trying to expedite project delivery for critical 
infrastructure projects, dating back to the last three 
administrations.
    Mr. Weber. OK.
    Ms. Pilconis. But this current effort of trying to really 
take a close look at the entire environmental approval 
process----
    Mr. Weber. Sure.
    Ms. Pilconis [continuing]. Before you can break ground on a 
project.
    Mr. Weber. Right.
    Ms. Pilconis. And, you know, coming up with a list of those 
10 items in that document has been circulated for about the 
past year.
    Yes, we would be pleased to provide additional information 
on it----
    Mr. Weber. Well, I am going to get my staff with you to do 
that.
    I served on the Texas Legislature Environmental Regulation 
Committee. And regarding Mr. Lowenthal's comments about NEPA, 
we learned that sue-and-settle, what is known as sue-and-
settle, was a detriment to a lot of projects, and it put it 
off, and it cost the project more money, and often at the 
taxpayer's expense. So we will discuss that.
    And number 5 you say establishing and enforcing an interior 
deadline for completing the environmental approval process for 
critical infrastructure projects. Who decides the criticality 
of those projects?
    Ms. Pilconis. Well----
    Mr. Weber. Have you thought through that?
    Ms. Pilconis. Our focus has been, as of late, on what has 
been included in a lot of the recent Executive orders.
    Mr. Weber. OK. So criticality from the executive----
    Ms. Pilconis. So projects that are important to public 
health and welfare, safety----
    Mr. Weber. Sure.
    Ms. Pilconis [continuing]. Providing----
    Mr. Weber. That is the component that the general was 
talking about.
    Ms. Pilconis. Exactly.
    Mr. Weber. I got you, OK.
    Ms. Pilconis. But also looking at projects that are 
restoring and rehabilitating the environment, so----
    Mr. Weber. Well, sure, sure. And then, in number 7 you say 
establishing more certainty upfront regarding the requirements 
for an availability of suitable compensatory mitigation. Could 
you elaborate on that?
    Ms. Pilconis. Sure. So that has to do with expediting the 
permitting process, and how quickly contractors can actually 
get their permits. So----
    Mr. Weber. Oh, I got you.
    Ms. Pilconis. If the contractor is responsible for 
securing, say, section 404 permit coverage, and jurisdictional 
determinations are uncertain, they are not able to determine 
what their mitigation responsibilities are going to be.
    Mr. Weber. OK.
    Ms. Pilconis. And so this uncertainty is driving up the 
cost----
    Mr. Weber. I got you.
    Ms. Pilconis [continuing]. Really, of their bids. And they 
don't know how much they are going to have to pay for 
mitigation.
    Mr. Weber. So what did you think about Mr. Dalton's comment 
earlier about maybe it is a fact that the Army Corps wasn't in 
charge of the study, and they didn't have to manage the 
project? Would that be an advantage?
    Ms. Pilconis. I don't have an----
    Mr. Weber. Mr. Dalton, in listening----
    Ms. Pilconis. That question--I have to think about that----
    Mr. Weber [continuing]. You can go ahead and level with me.
    Ms. Pilconis [continuing]. And get back to you.
    [Laughter.]
    Mr. Weber. OK, OK. And you didn't respond--and I have got 
about 30 seconds--or nobody asked you, of course. The Harbor 
Maintenance Trust Fund, you did not list that in your 10 
suggestions here. So if we got the Harbor Maintenance Trust 
Fund to be used for actually what it was designed to be, that 
would help?
    Ms. Pilconis. Absolutely.
    Mr. Weber. OK.
    Ms. Pilconis. So yes, we would very much like to see the 
Harbor Trust Fund----
    Mr. Weber. All right.
    Ms. Pilconis. And Inland Waterway Trust Fund, those funds 
used for their intended purpose, not diverted----
    Mr. Weber. One last question. We have got Sabine-Neches 
Waterway in our district. It is the second largest waterway in 
the country--only to the Mississippi River--and it exports 95 
percent of the LNG. It is responsible for sending it out across 
the country, so a huge economic benefit. We would like to see 
these projects done a lot quicker, a lot more quickly, somebody 
making decisions as to what that takes.
    Representing business contractors, would you agree that any 
time all of these delays and all this uncertainty is inherently 
in a project, that it drives the cost up?
    Ms. Pilconis. Oh, absolutely. That is one of our main 
fundamental points----
    Mr. Weber. OK. Well----
    Ms. Pilconis [continuing]. That uncertainty is driving up 
the price of the bids, and the delay in getting the project 
done is also driving up the cost.
    Mr. Weber. Well, we have had that project authorized, we 
would love to get the Sabine-Neches Waterway dredged. And it is 
a huge economic benefit, and it would help, you know, get some 
of the water out of the system when we have another hurricane.
    Mr. Chairman, I appreciate your indulgence, I yield back.
    Mr. Ferguson. Thank you. Next we recognize the gentlelady 
from Illinois, Mrs. Bustos.
    Mrs. Bustos. Thank you, Mr. Chairman. And I want to thank 
our witnesses for being here today.
    General Jackson and Mr. Dalton, I especially want to thank 
you and your staff for your commitment to everything you are 
focusing on that is so beneficial to our locks and dams.
    And I know--we have talked about this before, but my 
congressional district, the entire western border of my 
district, is the Mississippi River. And the Illinois River runs 
to the southern part of my congressional district. So this is 
an issue that is extremely important. And people from across my 
district would line up to tell you something that you already 
know, the usefulness, the lifetime design life has outlived 
itself. It is at risk of failure at this point.
    And just as an example, lock and dam 15 on the Mississippi 
River on Rock Island--I see the Mississippi River every day I 
wake up when I am at home, because that is my frontyard. But as 
you know, it was completed in 1934, it is one of the oldest 
parts of the Upper Mississippi navigation system. And this 
summer the Corps began emergency maintenance because the 
concrete guide wall was literally falling into the river.
    And so, this fix-as-fail approach to the locks and dams 
have put our growers, our manufacturers, and the navigation 
industry in a guessing game as to whether they will be able to 
deliver their goods to consumers on time. And so I know we have 
to do better than that.
    Before I get into my question, I also want to--I know 
Congressman Davis--who I don't see here right now--I know he 
addressed NESP earlier, and I want to thank you for your 
commitment to working with us on that. Congressman Davis and I 
have worked together in a bipartisan way to make sure that we 
are focusing on that, as well.
    So my first question is to General Jackson, also to Mr. 
Dalton. As we just talked about lock and dam 15, we have a lot 
of locks and dams that are at risk of literally crumbling into 
our waterways. A recent study found that an unscheduled closure 
of one lock and dam on the Illinois River would immediately 
affect commerce in 18 States and cost the shipping public 
nearly $1.7 billion annually in additional transportation 
costs.
    So my question is do you believe the current process--that 
the Corps adequately accounts for the risks of failure on 
inland waterways? And part two of that is how does that factor 
in the cost-benefit calculation? And that might also--Ms. 
Carter might be able to answer that, as well.
    Mr. Dalton. Yes. Congresswoman, the answer to that 
question, I believe, is that we look at each one of the 
projects that we have and do an assessment of risk associated 
with that project. And we have combined all of that into what 
we call our asset management approach or process.
    We do our best to identify where we think we need to invest 
to avoid those failures. We look at components now of locks and 
dams, rather than just say we need to go out and fix an entire 
lock and dam. We look at what components we think would affect 
the performance of that lock and dam. And that is where we try 
to make the investments.
    That is not necessarily to say that we get them all 
covered, because there is, of course, the limit on funding. But 
that is our approach, to try and make sure that we address 
those worst kind of conditions first.
    Mrs. Bustos. Ms. Carter, if you have anything to add to 
that.
    Ms. Carter. So, regarding construction of inland waterways, 
just with other navigation as well, the main factor that is 
considered is transportation cost savings. So that is usually 
the main economic driver of whether something is calculated as 
an economic benefit. And that is something that was originally 
established by Congress, to say that it is transportation 
savings.
    Regarding long-term operation and maintenance, the 
administration has been using ton-miles, as well as criticality 
of sites or safety, and closure. So those are the budget 
metrics that are used.
    Mrs. Bustos. OK. General, anything else to add to what was 
already spoken?
    General Jackson. Nothing of significance to add, 
Congresswoman, other than to say that this is something that we 
look at very closely.
    We also work very closely with industry. Marty Hettel, 
sitting behind me, with the Inland Waterways Users Board, and 
Mike Toohey from Waterways Council, Inc., and a lot of others 
are working with us to help us really understand the 
significance of the impact of the degradation of these locks 
and dams to industry in general. So we feel pretty well 
informed that we know.
    As we continue to champion these projects for funding and 
for future repair, rehabilitation, or replacement altogether, 
we feel very well informed on what the impact to industry is, 
and the associated economics.
    Mrs. Bustos. Thank you, General. All right, thank you. My 
time has expired, and with that, I yield back. Thank you.
    Mr. Ferguson. I will now recognize myself for 5 minutes.
    First I want to start by thanking Chairman Graves for 
hosting this meeting and thank all of you for your time today 
and your expertise.
    One of the things that I have--my experience at the local 
level as a mayor, really got me involved with water issues. One 
of the major rivers in the State of Georgia flows through my 
district. That is the Chattahoochee River. And that is 
important for the State of Georgia. But there are several 
important Corps projects that are along that waterway, as well.
    One of the most important projects, though, that affects 
the western side of the State of Georgia, where I am, is 
actually on the eastern side of the State, and that is the 
Savannah Harbor deepening project. And we know firsthand how 
important that project is. And you may say, well, why is a 
project on the coast of Georgia so important to the opposite 
side of the State, and it has everything to do with economic 
development, and making sure that we have a tremendous economic 
opportunity, not only for Georgia and the Southeast, but the 
entire Nation.
    So, understanding that deepening the Savannah Harbor from 
42 feet to 47 feet to be able to accommodate the larger ships 
for more efficient transport is really, really important, not 
only to the State of Georgia, but also to the entire Nation.
    Currently, this has an extraordinary cost-to-benefit ratio 
of 7.3 to 1. And when it is completed, it will generate an 
annual economic benefit to the Nation of more than $282 million 
a year of ongoing economic success and impact on the Nation. 
The current project is only about 35 percent complete. And I 
know that it is vitally important that we go ahead and complete 
this project, and that we want to see the recurring $282 
million a year of economic impact, job creation, and, quite 
candidly, the most efficient way to move product into the 
Southeast and through the city of Atlanta into the Midwest. And 
I know that we are going to continue to work diligently on that 
to make sure that that funding is in place.
    I do have a couple of questions after that statement. And, 
Ms. Jamieson, I was very curious and really want to know a 
little bit more about the performance-based delivery system 
that you talked about. Instead of being bogged down in the 
prescriptive regulation process, can you talk a little bit more 
about that and the benefits that that would have?
    Ms. Jamieson. Yes. The idea is to realign incentives. The 
traditional way that we deliver infrastructure is a pay-go 
basis, where we pay as we go, and we hope against all hope that 
the project will eventually be finished, which is what has led 
to a lot of our cost overruns and a lot of our efficiencies.
    The cost of mobilizing and demobilizing equipment, the cost 
of maintaining insurance, that is what starts to escalate the 
cost of these projects above and beyond.
    So when we refer to performance-based infrastructure, there 
is a whole series of different models out there. There is no 
one-size-fits-all, which is why you need to be very careful in 
how you craft this. But as an example, if you can allow a 
contractor to come in, design, build, finance, just say that, 
they come in with all of the capital upfront.
    You don't begin to pay them until they have completed the 
Savannah Harbor, or they have completed the project that you 
are after. Then the taxpayer starts to pay as the benefits are 
being--accruing back to the taxpayer. It realigns their 
incentives. They don't get paid until they finish, so they act 
differently, very differently. They are very aggressive in 
getting through some of the regulatory structures.
    Now, those also need to be addressed. It is not one or the 
other. You also need to address regulation in line with this. 
But that is really the premise of it. When you add in operation 
and maintenance, you also tend to incentivize to build things 
to last. We have seen this in a number of projects with 
bridges, where you have two bridges side by side, one done 
through incentivize-based performance contract and the other 
not, and they use new paints that are regenerative, so they can 
lower the maintenance cost over time.
    But we lock in, when we are engaging in the infrastructure, 
the lifetime asset management. And that is really important. 
But it is used very commonly. It is not a new thing, it is just 
the Federal Government has been prohibited from using it, which 
is trying to address our infrastructure crisis with one arm 
tied behind our back. It makes no sense, from a practical 
sense, not to allow it. But then you have to be very--you have 
to use discretion and be careful when you actually implement 
it.
    Mr. Ferguson. Thank you. We are just about out of time, and 
I will yield and now call on the gentleman from California, Mr. 
Huffman, for 5 minutes.
    Mr. Huffman. Thank you, Mr. Chairman.
    General Jackson, it is good to see you. And I appreciated 
the testimony earlier about the efforts to move some projects 
along. We all want to see critical water infrastructure funded 
and permitted efficiently. But I want to ask you about some 
things that this committee and this Congress have done in 
recent years toward that end, and see if you can give me an 
update.
    I know in section 1046 of WRRDA 2014 we directed the Corps 
to assess management practices, priorities, and authorize 
purposes of Corps reservoirs in arid regions. As of May 2016, I 
know the Corps hadn't still moved forward, hadn't yet moved 
forward on that assessment. Is there any update on that 
assessment today?
    General Jackson. Congressman, I think we are still working 
on that. Let me get back to you with some more detailed 
information.
    Mr. Huffman. All right. And if appropriated funds is still 
the holdup, I hope you will let us know that, as well.
    I know section 1117 of WRDA 2016 also directed the Corps to 
work with States with drought emergencies to update water 
control manuals for Corps reservoirs. This is moving toward 
what many of us want to see forecast-informed reservoir 
operations incorporating satellite technology and modern 
science into these age-old manuals that have dictated how Corps 
dams are operated in the arid West, because we can do a lot 
better stretching our water supplies and providing flood 
control.
    The GAO issued a report in July 2016 recommending that the 
Corps needed to address its inconsistent method for reviewing 
these control manuals. So you have got an act of Congress, you 
have got a GAO recommendation. Have we seen any action from the 
Corps since these developments on updating these old manuals?
    General Jackson. Sir, for section 1117 for drought 
emergencies, was that the implementation for 2016? I want to 
make sure I got that right.
    Mr. Huffman. To update the operating manuals, yes, the 
water----
    General Jackson. Right, yes, sir. We issued our 
implementation guidance for that back in July. We are working 
across the Corps to identify which of the operation manuals are 
the oldest or in most critical need of being updated.
    All the technologies that you have talked about, the new 
ways of looking at water management, whether it is forecast-
informed reservoir operations or the like, I know those new 
technologies and new ways of thinking about operating projects 
are being incorporated into our updated operations manuals.
    Let me let Mr. Dalton, who was our previous engineering and 
construction chief and was very much involved in that, talk 
just a little bit about that, if I can.
    Mr. Dalton. Thank you. We have two efforts ongoing to 
incorporate that new technology into our operating manuals. The 
first is the forecast-informed reservoir operations that you 
mentioned, FIRO. We look at that more as an R&D effort. And 
that takes longer because that mostly is looking at the rivers 
coming out of the Pineapple Express or atmospheric rivers in 
California.
    But where we are actually making more progress is on what I 
call forecast-based operations manuals, and that is actually 
taking the data that we have today of 5-day forecasts, and 
using that to incorporate into our manuals. And we look at that 
if we do it today, then we look at it tomorrow, we go back and 
look at what the accuracy of that fifth day--now we are at the 
fourth day. So it is kind of a constant thing to take a look at 
and adjust, but we are incorporating that into our manual 
updates.
    Mr. Huffman. So we are seeing new updates that reflect that 
forecast data?
    Mr. Dalton. The one that I know of for certain is out at 
the Folsom project, and we were trying to make sure that we all 
understood that well enough before incorporating that into 
other manuals.
    Mr. Huffman. Will you prioritize O&M funds to make sure 
that this actually gets completed?
    Mr. Dalton. Without a doubt as funding is available, we 
have a list of the reservoir or the operations manual that we 
would need to update. And so we will prioritize that, along 
with the other requirements--
    Mr. Huffman. OK, thank you. I know I am running out of time 
and I had a bunch more questions for you.
    But Ms. Jamieson, your testimony really caught my eye when 
you said that attempts by Congress to push P3s and even P4s, 
which I am very interested in, were sort of a legislative head 
fake because they didn't provide the full authorization and 
make it happen. Can you explain a little more what you mean by 
that?
    Ms. Jamieson. Yes, I can. And yes, that is a technical 
term, ``legislative head fake.''
    So in my written testimony I go into great detail, but in 
order to be able to--for a Federal agency to be able to engage 
in a P3, there are two categories. We have fully Federal 
projects and we have our cost-shared project. Let's talk about 
fully Federal.
    They need one of two things. They need the ability to enter 
into long-term performance-based contracts. That would be 
multiyear appropriations for a project to pay it back after it 
is complete. The primary restriction on that is really more on 
budget scoring, which is archaic, by accounting standards. And 
we recommend some solutions to that.
    But likewise, for the ability to leverage the trust funds, 
to raise revenues and then to reinvest them into the same 
project. Right now all the money goes back to Treasury. 
Consequently, they are stuck with only budget-based payments, 
which then they fall into the black hole of OMB scoring. So 
right now they are effectively prohibited on every level from 
doing it.
    There are also a couple of other tweaks that I will talk 
about--well, I won't talk about. So I will cede, thank you.
    Mr. Graves of Louisiana [presiding]. Thank you. Next we 
have the gentleman from California, Mr. LaMalfa.
    Mr. LaMalfa. Thank you, Mr. Chairman, I appreciate it. And 
thank you, panelists, for your time and travel.
    Mr. Inamine--I just pretend that is an Italian name. It 
gets a lot easier, as I am Italian. But, hey, thanks for being 
here, too.
    Again, great work has been done along the Feather River 
there. Butte County, my home county, as well as the Yuba, I 
used to represent in the State legislature. And my colleague, 
Mr. Garamendi, does now in the House, as--so it has been a good 
partnership to see to this getting done. We had great success. 
So--and I think this is really a great example for Mr. Dalton 
and General Jackson also, as we are talking about these 
partnerships and these new ways of doing things, that we are 
already seeing that happening in the way that the Sutter Butte 
Flood Control Agency has really taken the bull by the horns 
with getting so much of this done just since 2014, and in a way 
that was self-funded for a lot of it.
    So now we are down to the last bits, you know, waiting for 
the Army Corps. So, Mr. Inamine, we are talking about a project 
split into two different sections, 36 miles of a non-Federal 
piece, and now we are down to the last bit, the 5-mile Federal 
piece. How long did it take, really, to get the 36 miles done 
that----
    Mr. Inamine. We started construction in August of 2013.
    Mr. LaMalfa. August 2013. So here we are, OK. And then, 
again, how long has been the approval process for getting the 5 
miles, the very last bit of this project, done?
    Mr. Inamine. Well, right now it is--there is really no 
``approvals.'' We just need the new-start designation.
    Mr. LaMalfa. I will let--Mr. Garamendi, we need the new 
start, OK? So we got a bipartisan--opposite ends of the room 
here asking for that, as well.
    So, as was mentioned earlier, the project was authorized by 
the Federal Government for $689 million back in the day, and 
the Federal Government portion of that would be the 65 percent?
    Mr. Inamine. Yes.
    Mr. LaMalfa. And so the Federal Government, for this first 
36 miles has paid how much?
    Mr. Inamine. That would be zero.
    Mr. LaMalfa. Zero. And so now, for the last 5-mile portion 
of it, for a total price of $74 million, $25 million will come 
from locally, the Federal Government will get, instead of 65 
percent of $689 million, they will get off for $49 million to 
do this project, to finish the whole 41 miles.
    Mr. Inamine. Correct.
    Mr. LaMalfa. So that is a tiny percentage. I think the 
number was used--12 percent instead of 65 percent because of 
the innovation, because of the ability for Sutter Butte Flood 
Control Agency and the Federal Government, to that extent, to 
be able to partner on this thing. So this looks like the type 
of ground-breaking modernization of the process that we are all 
looking for and talking about.
    So I think, again, if we are looking for new examples of 
doing things, and the idea of what will be coming up in the new 
WRDA--let me jump over to Mr. Dalton for a moment.
    You talked about earlier the section 408 guidance that 
might be ready by mid-2018. And that is good, we appreciate 
your effort on this streamlining, on making this process work a 
little bit better.
    Are we talking also in that, in combining that perhaps with 
a streamlined NEPA and section 404, as well as the section 408 
guidance that--we are talking about an existing levee, an 
existing project that isn't being changed in much of a way, 
other than just being upgraded, just being rebuilt, just 
being--you know, having the slurry wall put in. Isn't there an 
argument to say that this would be a much more streamlined 
process? Again, you are not building a new structure, you are 
not adding to the height of it. Is that part of the thinking on 
that?
    Mr. Dalton. Congressman, it absolutely is part of that. In 
fact, some of the things that are not necessarily identified 
that we are looking at is for routine O&M, you don't need a 
section 408 permission for that.
    What you talked about is if the footprint doesn't change, 
we are going in and we are putting in a slurry wall, certainly 
that is something we can look at a lot faster to come to a 
decision than what we have done in the past.
    The other thing we are looking at is taking advantage of 
other NEPA or requirements that have been done, say for a 
section 404 permit, so that we can take that information and 
use that for the section 408. So we are looking at as much as 
we can to try and trim down that process.
    Mr. LaMalfa. Right. I appreciate your good effort on that, 
Mr. Dalton. And as we push forward this year, hopefully in this 
year's WRDA, we can get the pilot program. And I know that is 
something you have been driving for. So we appreciate that.
    And also some things Ms. Pilconis was talking about too, 
with the NEPA and the section 404 merger, these are things we 
need to get done because I know, where I come from--I live in 
the--at the edge of the inundation zone, where that issue with 
Lake Oroville and the impending possible failure of the 
emergency spillway, and so not just for me and my family, but, 
more importantly, the 188,000 people that were evacuated in 
that whole zone, and the levee system that still isn't complete 
at the south end, you know, they want this, they need it, they 
pay for it, and we need to have a process where we don't have 
to study the same bug and the same shrub over and over again 
with the NEPA and a section 404 and ta da ta da and ta dee ta 
dee. Let's just get it done, because we are wasting the 
people's money and endangering them.
    So, Mr. Chairman, I thank you for the time.
    Mr. Graves of Louisiana. Thank you. Next we have the 
gentlewoman, Mrs. Lawrence, for 5 minutes.
    Mrs. Lawrence. Thank you. To the panel, in September 2016 
the U.S. Government Accountability Office released a study on 
water infrastructure for selected mid-size and large cities 
with declining population, cities that have the exact same 
makeup as the city of Flint, Michigan, which you know is a 
poster child for the lack of investment in water 
infrastructure.
    It is alarming what the GAO found. Many mid-size and large 
cities throughout the United States, including the Midwest and 
the State of Michigan have lost a substantial percentage of 
their population. The loss in population results in declining 
revenues to address infrastructure needs.
    The cities are facing numerous infrastructure barriers. I 
would like to ask Mr. Dalton and then Ms. Pilconis. Can you 
comment on what extent do you believe regulations are the 
reasons we have a crisis in our water infrastructure system? 
Mr. Dalton first.
    Mr. Dalton. Congresswoman, I am not real sure I understand 
the question.
    Mrs. Lawrence. My question is that we have repeatedly 
addressed that regulations is one of the challenges we have in 
investing in our infrastructure. I want you to articulate----
    Mr. Dalton. Yes.
    Mrs. Lawrence [continuing]. When we look at these mid-size 
cities, and we are looking at the current crisis we have, what 
part of that do you believe is on the back of regulations that 
we have when it comes to investing in our water infrastructure?
    Mr. Dalton. One of those things that we need to take a look 
at with regard to our regulations is that the way we actually 
justify projects has an impact on how we invest in 
infrastructure.
    One of the things that I said we wanted to look at is how 
do we expand and consider the total value of a project? And 
what I mean by that, for instance, related to your question, is 
that if a community out there has a master plan, and we look at 
that and we say this is a regional benefit, not a national 
benefit, I think what we are saying there is that it is 
national because if people don't have a job locally or 
regionally, they will move to another location.
    But I think what that is doing to us is kind of choking out 
small and midtown or mid-city areas, because what happens is, 
when people leave small town U.S.A. or midtown U.S.A. and go to 
large cities, that creates other problems that we have that we 
are not really accounting for. I mean you go to a bigger city, 
you get bigger traffic problems. You go to a bigger city, you 
get more unemployment, et cetera.
    One of the things that we are looking at now that I think 
will help us, is how do we account for the value that we lose 
or that we gain by trying to help those smaller communities, 
rather than just looking at the larger communities?
    Ms. Pilconis. Even if a project is fully funded, it cannot 
move forward unless it has all of the necessary environmental 
approvals. So if you look at the American Recovery and 
Reinvestment Act, effectively all of those projects were even 
exempt from NEPA through categorical exclusions. And still, 
none of those funded projects were shovel-ready, because they 
still needed to go through a whole host of environmental 
approvals.
    And so, a funded project could take a decade or more to 
break ground because of the regulations and the environmental 
approval process. And even another important consideration is 
even after that project breaks ground, it is subject to being 
stopped throughout the cycle because of reevaluations, or 
because of citizen suits being brought, because of the very 
long statute of limitations. Like, for example, with--WRDA 
projects can go on for 3 years.
    Mrs. Lawrence. So my question is--no one has brought this 
up--we continuously talk about regulations. No one has talked 
about staffing. So when you say the amount of time it takes to 
get environmental approval on a project, no one has addressed 
staffing. And I know that there has been a concerted effort to 
defund these departments that would handle that.
    So I would like a truthful statement. Is part of the 
problem with the regulations the lack of staffing to perform 
the required analysis?
    Mr. Dalton. The answer to that question, I believe, is 
absolutely it does impact our ability to process and execute 
the permit actions or the environmental actions. In fact, what 
we said earlier is that if you shut down one organization, pick 
one up, or reduce it, the organization such as EPA or others, 
then that is going to affect our ability to actually work with 
that organization to try and have a timely approval of a permit 
action. So it does affect.
    Mrs. Lawrence. As I wrap up I just want to be real clear. I 
understand the impact regulations has, but I am a very firm 
believer in that, to do it right, it is worth the checks and 
balances. But if you defund and don't have the staffing to do 
it, and we don't update as we move through with technology, 
then the onus is on us to ensure we are staffed, that we are 
efficient, we are utilizing technology. And P3s are very 
important. The water infrastructure is critical, as we look at 
our transportation bill to move forward.
    Thank you, I yield back.
    Mr. Graves of Louisiana. Thank you very much. I yield to 
myself. We have heard many Members talk about different 
parochial project priorities and talk about different steps in 
the process that perhaps add time or other types of delays and 
expense. I am not sure that we have necessarily fully pivoted 
to what I hope we can talk about to some degree, and that is 
what does an efficient process look like?
    Ms. Jamieson, you talked a little bit about incentivizing 
the right type of behavior. I couldn't agree with you more. I 
think the current process--as you very well-articulated in your 
testimony, it actually incentivizes inefficiency. And I think 
it is an incredibly flawed process. But I do want to make note 
even the Corps of Engineers, under their own devices, have 
operated in a much more efficient posture than they do in their 
regular construction general program. And I will give a couple 
of examples.
    Number one is looking at timelines and dollars associated 
with some of their overseas projects, associated with perhaps 
rebuilding and other Civil Works efforts in Afghanistan and 
Iraq and in other countries.
    Secondly--and I know that Mr. Garamendi made comment 
earlier on the hurricane disaster funding through the Corps of 
Engineers for the aftermath of Hurricane Harvey--but after 
Hurricane Katrina, where, literally, projects weren't even 
conceived, weren't even authorized, but you were given an 
objective and given full funding.
    General, Mr. Dalton, could you comment on what you view as 
comparing and contrasting your existing CG authority, as 
compared to some of these alternative means of implementation 
or project delivery that you, your own organization, has 
carried out?
    General Jackson. Mr. Chairman, I will take the first swing 
at that, and then I will pass it to Mr. Dalton, who will 
probably give a much more eloquent response.
    All of the examples that you cited all gave us upfront 
funding. I have been part of the work that we have done in Iraq 
and Afghanistan. I had all the money that I needed. I had all 
the permissions and approvals that I needed. All I had to do 
was to execute the work. So if we had projects that we didn't 
deliver, that was on the Corps of Engineers, and that was in 
areas that we internally could look at how we awarded contracts 
and how we administered those and how we managed quality 
assurance, and the like.
    As I mentioned in my opening statement, with the 
construction account that we have now, $96 million in 
requirements, we get funded 1 year at a time. We don't have the 
ability to forecast out to know how much we are going to get 
over any period of time. It makes it very difficult in a 
construction program that spans multiple years to be able to 
award contracts in an efficient manner that allows us to get 
the work done as efficiently as we possibly can at the least 
cost that we possibly can, because we can award a contract for 
the full duration of all the work that needs to be done, and we 
don't play multiple years of mobilization and demobilization 
costs, as we build projects in increments over the period of 
time that it takes to build a project. So that is, to me, the 
biggest change and the biggest difference.
    In New Orleans, we did our NEPA process in parallel with 
the construction. We didn't have to do it sequentially, so we 
were given the ability to deliver the projects much quicker, 
because we did all these things as part of a much more 
holistic, comprehensive schedule. And that allowed us to 
deliver much, much more quickly than the process that we go 
through for a normal project, where we have to ask year after 
year for enough money to do the study this year, the next year, 
then the following year, then--to get all the new start and the 
construction authorization that are needed to deliver a 
project.
    James, over to you----
    Mr. Graves of Louisiana. Before we go to Mr. Dalton, 
General, just real quick, you did mention the environmental 
that was done in a parallel process, or largely after the fact. 
Do you recall, or are you aware of any opposition or litigation 
that has been filed by environmental groups or others as a 
result of that alternative NEPA compliance process?
    General Jackson. Mr. Chairman, I am personally not aware 
that there was significant opposition, or that there has been 
any significant litigation. I may be wrong, but that is just my 
personal----
    Mr. Graves of Louisiana. Well, I got to--I don't, either. 
And I am not going to sit and defend the current NEPA process, 
but I do want to make note that I am not aware of any 
environmental groups, of any activist groups, or anyone who 
came out and said that this is inappropriate, that it is not 
properly quantifying impacts.
    I will say that I don't like that the way that the Corps 
ultimately quantified the environmental impacts--I think that 
you undershot what the true wetlands impacts were, and I have 
been very clear on that. But that is not a result of the 
alternative arrangements, it is a result of the way that you 
quantified the process using the WVA versus the modified 
Charleston that you later implemented. So a whole other 
discussion.
    But, Mr. Dalton, quickly.
    Mr. Dalton. Yes, Mr. Chairman, I don't have a lot more to 
add to what General Jackson said, because I do think the 
funding is the key.
    I think the other thing that happens in a situation like 
that is both the contractor and the Government understand and 
can see the risk out in front of them and they can manage those 
risks because we have upfront funding. When we don't have that 
upfront funding, then contractors add in the risk of if I have 
to shut down or if you slow me down, et cetera, and then the 
costs of materials and goods go up. So all of that plays into 
it.
    I think the other thing is everybody has an attitude in 
something like post-Katrina that we have got to get it done. I 
mean there is a single focus, let's go out, let's get it done. 
And so risk, something I talked about earlier, I think it is 
something that everybody recognizes and is willing to take more 
of to get to that end state.
    Mr. Graves of Louisiana. Thank you, Mr. Dalton. I am going 
to turn to Ms. Esty.
    I recognize you for 5 minutes.
    Ms. Esty. Thank you, Mr. Chairman, and I want to thank our 
witnesses for enduring with us through a long, but very 
important hearing.
    In addition to being vice ranking member of this committee, 
I am also part of a bipartisan working group, including a 
number of members of this committee. And we just released a 
report last week on rebuilding America's infrastructure. And we 
focused on both ports and inland waterways, as well as on water 
infrastructure. And it is, in part, through that lens of 4 
months of pretty intense work, including some of the 
organizations represented at the table and others. And we came 
to a number of conclusions.
    One, there needs to be real funding, and it needs to be 
sustainable. All of you have talked about how the shortfall in 
funding has delayed projects, and that ends up costing the 
taxpayers more. And in some cases, delayed funding and failure 
to invest actually is harming lives, as it was in Flint. So we 
have a collective need to do that.
    One is streamlining and, in part, what Chairman Graves was 
talking about right now, that if we can more effectively 
deliver results for the American people, that will save money 
and allow us to get more projects done, get them done faster.
    Another is innovation.
    And another is on the use of funds for which they are 
dedicated. And of that I am speaking in specific of the Harbor 
Maintenance Trust Fund, which is supposed to be a dedicated 
user fee and is not being used to dredge our ports or our 
inland waterways. Money is sitting in that account and being 
used for other purposes or not being used at all. And that is 
harming our economy, and it is actually, I would argue, 
endangering our national security by forcing more cross-border 
traffic, particularly with Mexico, that can be a conduit for 
drugs, guns, and other illegal activity. That is not good for 
us. And when we make a commitment we need to be accountable and 
transparent about how those funds are spent.
    So, on the innovation front, I would like you to think 
about it and I will follow up and make sure you have got copies 
of this report. One of the things we are calling for is the 
creation of an ARPA-H2O [Advanced Research Projects Agency-
Water], to have an advanced research agency within the Federal 
Government to assist localities such as Flint, trying to figure 
out how are they going to repair and upgrade their water 
systems and keep them safe. We now believe that water--we know 
that water, traditionally drinking water and wastewater, is a 
local responsibility, funded in part through the State 
revolving funds.
    But we need to empower and support our local governments in 
making smart decisions, cost-effective decisions, and, frankly, 
relining of pipes from the inside. Perhaps shrinking the size 
so that you can get waterflow could be one of those things. So 
I would welcome your thoughts and input on supporting that 
proposal, which we think could be cost-effective and an 
appropriate role for the Federal Government to take on that 
research responsibility, which no locality can or should have 
those water experts doing that.
    I would like to follow up a little bit on the--and real 
funding, I think we can get agreement about the importance of 
real funding. And that has to happen, because the shortfall, as 
estimated by the American Society of Civil Engineers, is to be 
$126 billion by 2020. And even by Washington terms, that is 
real money. So we need to get collective responsibility here to 
do that.
    I would like to turn with my remaining time to P3s. We 
expect the White House to be focusing on this as part of its 
proposal. I have met several times with the White House, and 
trying to figure out what is an appropriate role for P3s, 
number one, in the water realm, particularly for Federal 
projects, existing Federal projects as well as new, and what 
are things that would need to change in terms of congressional 
authority.
    And, Ms. Jamieson, I know you have written on this and 
studied this, so I would like to ask you to flag where is it 
appropriate and not--and what would we need to do differently 
because, frankly, we are going to need more money than we are 
going to get directly funded out of this place. And there are 
local partners and outside groups that need to be at the table, 
but we understand there need to be things that change. So thank 
you.
    Ms. Jamieson. So it is a tough question to answer in 40 
seconds, but I am going to try. So let me start with what you 
didn't ask, and that is about the non-Federal infrastructure.
    And I would like to point out--and there has been some 
comments about poor and rural communities--if P3 is to be 
pursued, you also need to enable those poor and rural 
communities to leverage the benefits of it. That means we have 
to create some mechanisms like viability gap funding and other 
things that will help them make economically advantageous 
projects financially viable from this point of view. And so, 
there are tools, and I have mentioned a number of them in my 
writings to you.
    From the Federal side, we have identified--many people have 
identified the constraints against using P3 for federally owned 
and operated infrastructure. Primarily it goes back to revenue. 
You need a source of repayment. So if we are going to the 
Treasury, then we need the authority to allow the Corps to make 
long-term budget commitments and have that not scored in a 
prejudicial manner, or we need the ability for the Corps to 
assess fees, collect them, and rededicate them back into the 
project purposes, as you have rightly pointed out, which is the 
whole purpose of our trust funds. But they need that 
flexibility to be able to do it.
    Additionally, they need long-term contract authority. Many 
things you have already given to military and to others for 
military housing, for energy savings, performance contracts, 
Congress has done this before. I would submit that water 
resources deserve the same consideration.
    Ms. Esty. I see I am out of time, but I think you have a 
lot of interest on this committee in pursuing those kinds of 
innovations that will allow more money and better 
decisionmaking. Thank you.
    Mr. Graves of Louisiana. Thank you.
    Mr. LaMalfa?
    Mr. LaMalfa. Thank you again, Mr. Chairman.
    Ms. Pilconis, on the--on your top 10 here that, you know, 
Mr. Weber had alluded to also, a lot of, I think, really wise 
thinking on here as far as you--you mentioned merging the 
section 404 and the NEPA process, concurrent use of the process 
of section 408 and section 404 permits, giving the Corps 
greater authority to run the section 404.
    Could you elaborate just a little bit on how these can be 
accomplished with really no detriment to the environmental 
questions that are being asked and, indeed, how the duplicative 
process for several agencies or several processes are just 
harmful to the cost and do cause delay?
    Ms. Pilconis. OK, sure. So with regard to duplication, when 
the Corps is issuing its section 404 permit, or when it is 
undergoing the section 408 authorization, it is required to 
assess impacts to endangered and threatened species, and 
potentially undergo a section 7 consultation, look at coastal 
zone impacts, look at impacts to historic and cultural 
resources. So that is also being assessed during the NEPA 
process.
    So potentially, you could be doing that three times, if you 
are doing it in NEPA, doing it in section 404, doing it in 
section 408. We are not suggesting that you are cutting back on 
your environmental assessment, nor are we saying that any of 
the environmental agencies should be cutting back on meeting 
their statutory obligations.
    What we are suggesting with our top 10 is that there be a 
little bit more work put in upfront in realigning the way that 
the agencies are coming together, the way that they are 
engaging, the way that they are coordinating in a more 
productive and cooperative manner, so that during the initial 
NEPA process, the information is being collected that will 
satisfy section 404, that will satisfy section 408.
    There was another top 10 that you asked me to touch on, 
and, I am sorry, I forget.
    Oh, with regard to EPA. So with the section 404 process, it 
is really jointly administered in many respects between the 
Corps and EPA, where EPA has authority over jurisdiction, 
jurisdictional determinations. EPA has authority to veto a 
permit decision, even after the fact. EPA has the authority to 
elevate disputes when the Corps is making decisions on whether 
or not the section 404(b)(1) guidelines have been met. And so 
this really does and can slow down the process.
    And so we ask that----
    Mr. LaMalfa. So we really need one-stop shopping, and we 
should be able to entrust Army Corps to do that.
    Ms. Pilconis. Correct, thank you.
    Mr. LaMalfa. Yes.
    Ms. Pilconis. You just succinctly put together what I was--
--
    Mr. LaMalfa. Well, thank you. I----
    Ms. Pilconis. My mind----
    Mr. LaMalfa. I got to have succinct around here. So thank 
you.
    Mr. Inamine, elaborate a little bit on how--on that portion 
next to Yuba City, where a previously repaired levee some years 
ago used a different process and different--it wasn't a SBFCA 
piece. How were you able to get to that 5-week section 408 
process?
    I mean, obviously, the urgency was there because it was 
right next to the city, and you had the--how were you able to 
move that to a 5-week, instead of a--such a long, drawn-out 
process?
    Mr. Inamine. Well, as I said in my prepared testimony the 
three reasons. But--including the recent guidance from the 
Corps of Engineers to delegate all of these processes to 
division and district. Normally, these kinds of projects go up 
and down with headquarters, and you get in this endless loop 
that just takes forever.
    In addition, you know----
    Mr. LaMalfa. So maybe we entrust the district, where the 
knowledge is, and the----
    Mr. Inamine. Absolutely.
    Mr. LaMalfa. Yes, OK.
    Mr. Inamine. But, you know, like most of these projects--
and I concur with Ms. Pilconis's comment about some of the 
redundant permitting that is often done. We have some projects 
where we are going through two serial review periods. All of 
that goes away under the emergency declaration. So we are just 
taking advantage of an emergency, quite frankly.
    But what it really boils down to is you really have to 
have--like all of these projects, like everything that we are 
talking about here, there is so much regulation, particularly 
associated with the old section 408, you really have to have a 
champion within the Corps, just to shove these projects 
through, and to run it through, dedicate resources, remove 
these redundancies.
    There is plenty of discretion to remove these redundant or 
serial processes----
    Mr. LaMalfa. Well, let me ask this, then. If--I hear on 
this committee sometimes it is a matter of funding, not a slow-
down of regulatory process. So if we had $49 million or $689 
million, a stack of $100 bills here, how long from that until 
you could actually, you know, start a project? You know, 
because, you know, Congress authorized this thing years ago, 
and yet here we still are with part of it not done.
    Mr. Inamine. So if I understand, the question is why are 
we----
    Mr. LaMalfa. Well, we are told it is funding. But really, 
how much of it is regulatory slow-down?
    Mr. Inamine. Well, all of the regulatory work has been--the 
really--the time-consuming regulatory work has been done 
through the authorization process. But it is true that we are 
going to revisit, as in Ms. Pilconis's testimony, we are going 
to have to redo some of this work. You have to redo some of 
these consultations. And there is really--oftentimes there is 
just no need to do that.
    We have a little project, by the way, nothing by anybody's 
accounting, in the Feather River. And we are doing a section 
408 review, 45-day review period. And that is going to be 
followed by another 45-day review period by FERC. It is going 
to be sent to the same agencies, same thing, and that is 
holding things up.
    Mr. LaMalfa. Same bug, same shrubs.
    Mr. Inamine. Yes.
    Mr. LaMalfa. Yes. All right, thank you.
    I appreciate the indulgence, Mr. Chairman.
    Mr. Graves of Louisiana. I yield to the ranking member, 
Mrs. Napolitano.
    Mrs. Napolitano. Thank you, sir.
    General Jackson, in a few weeks we expect the President to 
send up his fiscal 2019 budget for the Corps. Members of this 
committee on both sides are frustrated by the lack of 
transparency by which the administration identifies which 
projects to fund--and a process that is all the more important, 
since it is the only way a project can receive funding under 
the Republican earmark moratorium.
    Do you believe the process by which the administration 
identifies projects for inclusion is fully transparent and 
predictable to both local sponsors and the public?
    General Jackson. I think the process that is used is about 
as fair as it can be, given all the different demands on the 
system. We get very specific guidance on what makes a project 
eligible for consideration, whether it has a signed sponsorship 
agreement, whether it has achieved certain milestones that make 
it eligible for consideration, based on where it is in the 
project life cycle.
    We try as best we can in the Corps to communicate that with 
sponsors, so they know what the parameters are that make a 
project eligible for consideration. But at the end of the day 
the administration has to make tough choices, based upon all 
the different demands that they have. And until such time that 
the budget is released, we in the Corps of Engineers don't even 
know what that is going to be, although we have provided 
significant amount of input into it. We get a budget back that 
the administration feels represents the priorities of the 
administration, the President, and has taken all of our input 
into consideration in making those tough choices.
    Then we work with sponsors after the fact to help them 
understand what the significance is of what has happened. What 
does that mean for their project, in terms of do they get 
enough funding, not enough funding, or no funding at all? And 
what is our strategy?
    We have to continually redevelop the funding strategies 
with our sponsors, based upon all the different competing 
demands that go into that budgeting process. That is about the 
only thing we can do to be more transparent, is just continue 
to communicate more effectively with sponsors, and help them 
understand, based upon benefit-cost ratio and all the things 
that historically have been considered to make projects 
budgetable, where they stand and where the likelihood of 
funding will be into the future.
    Mrs. Napolitano. Thank you. Yet yesterday the Chief of 
Engineers, your boss, testified on the process in the Senate 
and noted that the way to get a project to the top was for the 
local sponsors to pay more than their statutory cost share. 
This is very troubling to us, or at least to me, because less 
affluent communities may be unable to pay for them, yet they 
have great needs.
    Even more troubling is, since the administration again 
holds all the cards and winners and losers in the budget 
process, under the current system, OMB can refuse to help a 
community that can only afford normal statutory cost share, 
because it is simply not enough. If the administration position 
is that communities pay for more, can jump to the front of the 
line, how are the less affluent, or poorer communities, being 
able to compete?
    General Jackson. You raise a great question. I know the 
question that you refer to that General Semonite was asked in 
the hearing yesterday. I think it kind of goes back to the 
testimony and to my opening statement, and that the math 
problem is we don't have enough Federal appropriations. So how 
do we incentivize and encourage other folks to come forward, 
whether that is the State, locals, whether it is private 
investment, how do we rank the relative value of a project?
    The benefit-cost ratio has typically been what we have 
used. But if you are a smaller, less affluent community, where 
the benefits monetarily are not as great, your benefit-cost 
ratio might not be as high as one in a more affluent area. I 
think that is a real challenge that I think we need to work 
together to figure out how to characterize the relative 
importance of a project. How do we define what is in the 
Federal interest? What does the Federal Government need to be 
more involved in, or less involved in? Where can we bring more 
funding to bear, based upon availability, or ability to pay?
    And at the end of the day, how do we incentivize, as a 
Federal Government, all of this to be considered, and how do we 
reduce costs and make project delivery more effective, so it 
incentivizes locals to want to be more involved in getting 
projects delivered more quickly? Those are some of the thoughts 
that I have.
    Mrs. Napolitano. Have you started developing any 
guidelines?
    General Jackson. We have been having a lot of discussions, 
Congresswoman, about how we might be able to do that. The 
administration has reached out to us and asked us for some of 
our technical input into some things that----
    Mrs. Napolitano. Would you share that with us?
    General Jackson. We will when we are able to, we will 
definitely share that with you. Yes, ma'am.
    Mrs. Napolitano. Thank you. The administration position is 
that water resources needs of the wealthy communities are more 
important than smaller communities and rural communities. That 
could be a problem, and that is something that--we need to be 
sure it gets into the equation.
    General Jackson. Congresswoman, that is a discussion that 
we have had a lot within the administration and also with 
Congress. We recognize that there must be a fair way of 
evaluating these projects, and making sure that the right 
funding is brought to bear to deliver.
    We recognize that the risk to smaller or less affluent 
communities is just as important as the risk to more affluent 
communities, and we have just got to figure out the right way 
to be able to assess that and get those projects delivered for 
all folks who are at risk.
    Mrs. Napolitano. Well, I represent several communities with 
small commercial harbors that are frequently overlooked for 
maintenance dredging dollars. Is there a reason why the 
administration chooses not to fund the dredging needs of those 
communities, despite the fact that $10 billion in Harbor 
Maintenance Trust Funds currently sit in a trust fund?
    General Jackson. Congresswoman, that is another great 
question. There are more--as you know, more dredging 
requirements that are out there. We don't dredge all the 
harbors that we are responsible for, too. And so we need to 
reassess and relook at all the forms of funding available, and 
make good informed decisions on how we can optimize all the 
funding that is available to get all the harbors that are 
eligible, open.
    Mrs. Napolitano. Thank you.
    Mr. Graves of Louisiana. Mr. Huffman?
    Mr. Huffman. Thank you, Mr. Chairman. So Major General 
Jackson, continuing the discussion that I was starting earlier 
on P3s and P4s, we know that 2014 WRRDA put together a 
framework for a pilot program in this area. I am interested in 
seeing movement because I think I have a--the poster child of 
opportunity in my district involving dredging in the Petaluma 
River, where you have got a lot of local governments and even 
private-sector partners ready to step up, partner with the 
Corps in a way that would save the Government money and work 
for everyone involved in a wonderful way. But we just can't 
seem to get moving.
    Now, Ms. Jamieson is suggesting that the authorities that 
we have provided in the past to try to move these ideas forward 
aren't meaningful enough. And I think, if I am understanding 
her correctly, that unless we fundamentally reform the way the 
Harbor Maintenance Trust Fund works, for example, so that it is 
not subject to the annual appropriations shortfalls that--I am 
very sympathetic of the problem you face there.
    Do you agree that, without those kind of big, fundamental 
reforms, we are really not going to get anywhere with these P3s 
and P4s? Or do you think there are some things you can do 
within the current system?
    General Jackson. Congressman, I think there are some things 
that we need to do. But Congress has been very clear. We need 
to get an administration policy that helps the P3s that we do 
develop to be able to be effectively funded and administered 
through the system.
    One of the challenges that I found, personally, with the 
one P3 that we have, is that we didn't have the policy guidance 
to support it, we did it just through brute force to get it 
through, because we wanted to demonstrate that P3s work. And we 
have had a lot of help from Jill and other folks to help craft 
that.
    But at the end of the day, you know, there is still a 
Federal obligation at the tail end of that particular P3, and 
it is a large amount of money still, all things considered. And 
it is hard to figure out how to assess that with the benefit-
cost ratio that it has, in terms of how it competes with other 
projects in the budget cycle.
    I think there is more work that needs to be done. I think 
that P3s and P4s are definitely part of the arsenal that we 
need to employ into the future. I think there are some details 
that we need to work out. I think these are details that we 
obviously need to work out with the folks that are advising us 
who have experience in this.
    We certainly need to work out with Congress if there is any 
legislative tweaks that need to occur to address some of the 
challenges that Ms. Jamieson talked about, and we certainly 
need to get the administration on board with a good, solid 
policy that they support that allows us to consummate these 
deals into the future, because I think P3s and P4s are part, 
again, of the arsenal that we have to employ if we are going to 
move forward on delivering these projects.
    Mr. Huffman. Ms. Jamieson, back to you, if I could. So, you 
know, my interest in this is I have got a shallow draft 
dredging project that is way behind in the cycle. It was 
supposed to be dredged. It is starting to shut down commerce 
and even recreation on the Petaluma River, and I have got a 
bunch of other shallow draft situations around the North Bay 
and the San Francisco Bay area, very similar. We would like to 
come together as a region, partner with the Corps, and find a 
way to get this done.
    They have talked about creative ways to maybe go in on 
buying some equipment together that would save the Corps a lot 
of money over time, and the local Corps folks seem really 
interested in this. But we can just never get it going. What is 
your opinion of a project like that?
    Do we need more changes in the way OMB scores these things, 
in the way the Harbor Maintenance Trust Fund works, or, you 
know, if we are stuck with the current framework kind of 
project like--that would still have a chance without an act of 
Congress?
    Ms. Jamieson. It is a great question. I think this is a P4 
example, right?
    Mr. Huffman. Yes.
    Ms. Jamieson. And so the benefit that you have there is 
that you don't have some of the same Federal constraints, like 
OMB scoring, if it was a federally owned asset.
    Mr. Huffman. Right.
    Ms. Jamieson. California has its own legislation, you have 
enabling legislation to pursue P3.
    The real issue becomes one of the funding stream from the 
Corps and their commitment to that, and how that would be 
budgeted. And this goes back to, I think, what the general was 
just saying. The request from Congress was a budget 
prioritization, amongst other things. We recommend in our 
written testimony some ways to address that, and that includes 
return on Federal investment, which can also take into account 
the poorer communities, those who need more money.
    But ultimately, because Congress does not allow for 
multiyear appropriations, or to forward commit, your local 
sponsors will be going at this under the assumption that the 
Federal Government will be able to stand up when it is time, 
when they may not.
    Mr. Huffman. Yes.
    Ms. Jamieson. And that is what we need--that is the big 
disconnect----
    Mr. Huffman. Well, I think they are--as local governments, 
they are more willing to do that than a private concessionaire 
might be, for example.
    Ms. Jamieson. Absolutely. And don't get me wrong, a P3 is 
not always the right solution. I have actually talked to some 
of the folks about this particular project, so I am a bit 
familiar with it.
    You know, it ultimately comes down to is there the local 
capacity to execute the project in the way that you can 
mitigate against your own construction risks, and those sorts 
of things. But it comes down to where the role of the Corps is. 
And it is not a one-size-fits-all, but I do think that there 
needs to be some relief and some broader thinking of the 
strategies to allow for those sorts of projects to go through.
    Mr. Huffman. Thank you.
    Mr. Chairman, thank you for your indulgence.
    Mr. Graves of Louisiana. Absolutely. Thank you. All right, 
I am going to go off on a diatribe. I got a few last questions 
and just sort of some feelings that have been bottled up here 
for the last few hours. But I do want to thank you all for your 
patience and endurance.
    Mr. Dalton, a few questions before I do. Number one, I made 
reference to your section 408 memo, and I do want to piggyback 
on Mr. Davis's comments. I don't agree with the revision in 
authority that the Corps has come up with there, and we have 
discussed this at length, so I am not going to go into detail.
    But in your memo you eliminate the 60-percent design 
threshold. I just want, for the record, that it is your intent 
that that doesn't mean--because you mentioned giving discretion 
to the districts--that doesn't mean that they can now come in 
and do 80 percent, that the intent was you are eliminating that 
and that gives them the discretion to go down. Could you please 
clarify?
    Mr. Dalton. Mr. Chairman, that is absolutely the intent. 
The intent is that if we thought before we needed 60 percent 
design, but because you are working with folks locally, that 
they understand and know their project well enough to where we 
can probably make a decision with less than 60 percent design.
    And so it may be 30 percent on one project, 20 percent on 
another. It might be 50 percent on a project, it just depends. 
But the intent is not to require more than the 60 percent.
    Mr. Graves of Louisiana. All right, districts, you hear 
that?
    [Laughter.]
    Mr. Graves of Louisiana. Thank you very much.
    Ms. Pilconis, could you clarify something? We have talked 
about NEPA a good bit here. If you have a project where a non-
Federal entity--a State, a county, parish, what have you, a 
water board--is carrying out a project, and they are using only 
non-Federal funds, would NEPA apply in that case, in most 
instances?
    Ms. Pilconis. NEPA is triggered if there is a ``Federal 
action.'' So it would be Federal funding, on Federal lands, or 
a Federal permit.
    Mr. Graves of Louisiana. And so----
    Ms. Pilconis. So if there is no Federal funding, NEPA would 
be triggered then if the project requires section 404 approval 
or section 408 approval, section 404 permit. So it is permit, 
license, or approval by the----
    Mr. Graves of Louisiana. And----
    Ms. Pilconis [continuing]. Federal Government----
    Mr. Graves of Louisiana. And so if Federal actions are 
triggered through the permitting process or through the use of 
Federal funds, then NEPA is triggered.
    Ms. Pilconis. Or Federal lands.
    Mr. Graves of Louisiana. But the reality is--and that is 
another reason why the section 408 guidance, which suddenly 
triggered NEPA, was additionally problematic. But in any case, 
the reality is that most projects that are done by non-Federals 
don't actually trigger a NEPA analysis.
    Based on your experience, and Mr. Smith--I am sorry, I--is 
it--I think that--I serve on this committee, I serve on the 
Natural Resources Committee. I often hear Members of Congress 
talk about how, you know, we have got to ensure that NEPA 
applies, or environmental reviews are applied, because 
otherwise the environment is going to be trashed.
    Look, you run a waterboard. You work with non-Federal 
clients, I am sure, through your contractors around the United 
States. Is it your belief that local and State governments just 
inherently have a desire to trash or pave the environment?
    Mr. Inamine. Absolutely not. No, we live here. And so we 
are not only motivated by the existential threat of flooding, 
in our example, but we also live in that same environment that 
is so assiduously protected by environmental interests. So----
    Mr. Graves of Louisiana. In an instance where NEPA didn't 
apply, would you have an alternative environmental review 
process that you would utilize?
    Mr. Inamine. Yes----
    Mr. Graves of Louisiana. Or again, even if it is not 
formal----
    Mr. Inamine. You know, many of our--to sort of cut to the 
chase, many of our issues are with redundant permissions. And I 
brought up an example of, frankly, an ecorestoration project. 
We are partnered with environmental NGOs, and what an awkward 
partnership that is. Flood control agency and an environmental 
NGO partner, trying to do an ecorestoration project that also 
happens to provide flood control. And yet we have to do these 
two same reviews out of the Federal Register, going to the same 
resource agencies. There is no point to this.
    So it is, just within even existing law, to use a little 
discretion. Use a little bit of common sense to remove many of 
these redundancies and serial reviews that are----
    Mr. Graves of Louisiana. Thank you.
    Mr. Inamine [continuing]. Killing projects.
    Mr. Graves of Louisiana. Ms. Pilconis, do you have any 
experience or any thoughts on just, again, the fact that, in 
many cases, NEPA is not triggered, and some of the non-Federal 
entities you have worked with or your members have worked with, 
do you believe that there is an underlying intent to trash the 
environment?
    Or have you seen--I mean I will be honest, I have heard 
folks come complain to us about California is more stringent. 
In cases, the CEPA environmental laws----
    Ms. Pilconis. And that is actually true. No, absolutely, of 
course not. NEPA is just one part of the process, also. And you 
know, our big flowchart, NEPA is just one part at the top, like 
one-third. The rest of it is representing the permitting 
process. And our chart is only representing the Federal 
permitting process. So you have got State environmental laws, 
you have got local ordinances. So there is an entire large, 
large, overlapping framework of environmental protections in 
place, aside from NEPA.
    Mr. Graves of Louisiana. Thank you. I am going to move this 
gavel, because Mrs. Napolitano is about to use it on me.
    [Laughter.]
    Mr. Graves of Louisiana. But let me change gears before I 
get myself in trouble.
    Ms. Jamieson, thank you again for being here. You made a 
number of comments about P3s, and indicated that they were not 
the silver bullet solution to everything, which I certainly 
agree with. I do want to make a point, though, that I think 
is--where I think P3s may be helpful.
    I think there are a number of instances where there are 
inefficiencies that could be monetized in a way that would 
actually not cause additional revenue streams or tolls or other 
things. And I will give you a couple of examples.
    Number one, we have dealt with the flood insurance program 
here, and I think in a flawed way, through the House of 
Representatives. But if you look at the instance where 
someone's actuarial rate--and we will make up numbers--is $100 
million, cumulatively, in a community, per year, and you could 
make an investment of $50 million, and cut the actuarial rate 
in half, it is idiotic that we are continuing to pay $100 
million a year in premiums, when we can make such a fractional 
investment at actually reducing actuarial rates. There is no 
connectivity between those. And it is incredibly frustrating.
    Whether it is the Corps coming in and building something, 
FEMA, HUD, anyone, or the local community, do you believe that 
there are situations like that where you are not necessarily 
coming in and triggering additional tax or revenue stream?
    Ms. Jamieson. Absolutely. Performance-based contracting 
is----
    Mr. Graves of Louisiana. Is your mic on?
    Ms. Jamieson. I will get closer. Performance-based 
contracting--that is what that refers to--is where you 
capitalize savings in order to pay the contractor. And that is 
very common. We do that--they did it in New York City with 
their water utility. It is a very common modality, very similar 
to energy savings performance contracts, right? It is the exact 
same concept, but it should be more broadly enabled to allow 
for----
    Mr. Graves of Louisiana. And I will give another example, 
because we have an awful interstate bottleneck problem in my 
home town of Baton Rouge. You look at the amount of time that 
cars are sitting in traffic--as I recall, an average of 47 
hours a year in Baton Rouge, Louisiana, and I think they 
spend--I believe, as I recall, it is over $900 in extra 
gasoline.
    So, if you can improve the efficiency of that 
transportation system, you are reducing gasoline payments, you 
are reducing emissions into the environment, which, of course, 
cause health and other adverse consequences--get a little props 
there--and of course, you are saving time. And so, if you can 
monetize those efficiencies and examples like the two that I 
gave--and, of course, there are thousands of others--I think 
that P3s can play a role in some of our infrastructure 
solutions. Would you concur?
    Ms. Jamieson. Absolutely, Absolutely. And I would even go 
so far that even when you are using traditional funding, the 
ability to monetize and commercialize and find ancillary 
revenues, whether it is air rights over existing highways and 
other things, that is what certain contractors are much better 
at than the Government, itself. And so that helps buy down the 
cost.
    But savings-based contracts are very common, and we should 
be capitalizing savings and looking for those innovations.
    Mr. Graves of Louisiana. All right. Lastly, before I close 
up, Ms. Carter, thanks again for being here. This committee, in 
December, I believe it was, passed H.R. 4460. It allowed for, 
basically, eliminating a policy obstacle whereby FEMA Hazard 
Mitigation Grant funds are prohibited from being used for a 
Corps-authorized project. So if you get an authorization 
through the Corps, you are suddenly prohibited from using these 
hazard mitigation dollars to advance community resilience in 
the aftermath of a disaster.
    I want to make sure I phrase this question right to where I 
get an actual answer. Do you believe that there are 
efficiencies where we could better utilize existing revenue 
streams to achieve some of these resiliency goals, and perhaps 
reduce disaster spending over the long term?
    Ms. Carter. So, in terms of opportunities to try to 
consolidate projects, there may be multiple approaches to flood 
risk management and resiliency. That would be one area where 
you might have some benefits of trying to get multiple Federal 
authorities to essentially work together.
    So, for instance, the Corps does not do stormwater 
management, but yet that can be part of your flood control 
solution, right? The Corps does not necessarily often do buy-
outs, but yet you can do that with HMGP funds. So at times the 
ability to be able to consolidate authorities and then funding 
from those authorities within a single, more comprehensive 
project is an example of how sometimes there may be 
efficiencies.
    Mr. Graves of Louisiana. Thank you. And I want to make note 
that the Corps actually does have authority to do buy-outs in a 
project, or relocations or nonstructural solutions, because we 
implement those in Louisiana all the time. And there has been a 
lot of misinformation related to that.
    So I will say it again, thank you very much. I think that, 
as we move forward, I look forward to working with Mrs. 
Napolitano and Members on both sides of the aisle on 
fundamental change. I said at the beginning that these projects 
that we are talking about today have extraordinary urgency. 
Whether it is perhaps strangling the economy and some of our 
trade opportunities through ports and waterways, whether it is 
significantly increasing the cost of disaster response--and 
just looking at the hurricane season we had last year.
    Folks often say we can't afford to build these projects. I 
will say we can't afford not to. We are spending exponentially 
more dollars responding to disasters than we would if we were 
proactive in moving these projects aggressively forward.
    But I don't want to in any way absolve the Corps. I have 
often been a strong critic of the Corps processes. And General 
and Mr. Dalton, you both talked about some efficiencies. And 
certainly it is the right direction, but I can't overstate how 
much redoubling and tripling of those efforts needs to occur to 
get to a point to where it resembles anything that is 
reasonable.
    I agree that Congress is somewhat complicit in this, in 
terms of funding and other things. But I will also say, as Mr. 
Inamine--I am trying--has noted, if the Corps is going to cost 
a project at $100 million, and you can turn around and build it 
for $20 million, we are dealing with inflated cost, we are 
dealing with, in some cases, prohibitive implementation, 
because we are never going to appropriate those kinds of 
dollars.
    Or it makes more sense to zipper together with your non-
Federal sponsor and figure out how can he or she use their 
capabilities to move things faster, cheaper, better, what have 
you, and the Corps come in and do the components that they are 
better equipped to do. And that doesn't happen today. Those are 
things that we need to be considering, as we move forward.
    I want to make note in Louisiana that, under Executive 
Order 13807 that was mentioned earlier, we have been frustrated 
by the lack of this MOU moving forward and getting signed that 
they are working on. And I also want to urge you, as we move 
forward on LCA and other large-scale projects, that we look at 
programmatic-type permitting, as opposed to doing these 
individual approaches. I think we can see greater efficiencies.
    And let's keep in mind these projects are designed to 
restore the environment, rather than causing environmental 
harm.
    So, with that, I might have gone a minute over, and I just 
want to see if you have anything----
    Mrs. Napolitano. A slight minute. Well, I certainly think 
you are right, but we also need to look at increasing the 
funding. There is, without a doubt, that need.
    Mr. Graves of Louisiana. All right. Well, thank you all 
very much. And I have no further questions.
    The hearing is adjourned.
    [Whereupon, at 12:48 p.m., the subcommittee was adjourned.]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
</pre></body></html>
